<html>
<title> - STEM EDUCATION: THE ADMINISTRATION'S PROPOSED REORGANIZATION</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                            STEM EDUCATION:

                          THE ADMINISTRATION'S

                        PROPOSED REORGANIZATION
=======================================================================


                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                         TUESDAY, JUNE 4, 2013

                               __________

                           Serial No. 113-33

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
81-722                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
DANA ROHRABACHER, California         EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas                 ZOE LOFGREN, California
F. JAMES SENSENBRENNER, JR.,         DANIEL LIPINSKI, Illinois
    Wisconsin                        DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             FREDERICA S. WILSON, Florida
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
PAUL C. BROUN, Georgia               DAN MAFFEI, New York
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   JOSEPH KENNEDY III, Massachusetts
RANDY HULTGREN, Illinois             SCOTT PETERS, California
LARRY BUCSHON, Indiana               DEREK KILMER, Washington
STEVE STOCKMAN, Texas                AMI BERA, California
BILL POSEY, Florida                  ELIZABETH ESTY, Connecticut
CYNTHIA LUMMIS, Wyoming              MARC VEASEY, Texas
DAVID SCHWEIKERT, Arizona            JULIA BROWNLEY, California
THOMAS MASSIE, Kentucky              MARK TAKANO, California
KEVIN CRAMER, North Dakota           ROBIN KELLY, Illinois
JIM BRIDENSTINE, Oklahoma
RANDY WEBER, Texas
CHRIS STEWART, Utah
VACANCY
                            C O N T E N T S

                         Tuesday, June 4, 2013

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................     6
    Written Statement............................................     7

Statement by Representative Eddie Bernice Johnson, Ranking 
  Minority Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................     7
    Written Statement............................................     8

                               Witnesses:

The Honorable John Holdren, Director, Office of Science and 
  Technology Policy (OSTP), Executive Office of the President
    Oral Statement...............................................    10
    Written Statement............................................    13

Dr. Joan Ferrini-Mundy, Assistant Director, Directorate for 
  Education and Human Resources, National Science Foundation 
  (NSF)
    Oral Statement...............................................    19
    Written Statement............................................    21

Mr. Leland D. Melvin, Associate Administrator for Education, 
  National Aeronautics and Space Administration (NASA)
    Oral Statement...............................................    28
    Written Statement............................................    30

Discussion.......................................................    34

             Appendix I: Answers to Post-Hearing Questions

The Honorable John Holdren, Director, Office of Science and 
  Technology Policy (OSTP), Executive Office of the President....    62

Dr. Joan Ferrini-Mundy, Assistant Director, Directorate for 
  Education and Human Resources, National Science Foundation 
  (NSF)..........................................................    71

Mr. Leland D. Melvin, Associate Administrator for Education, 
  National Aeronautics and Space Administration (NASA)...........    79

            Appendix II: Additional Material for the Record

Submitted statement for the record by Representative Frederica 
  Wilson, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    96

Letter submitted by Representative Joseph P. Kennedy, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    97

Submitted list of STEM programs for the record by The Honorable 
  John Holdren...................................................    99

Submitted letter to correct statements in the record by The 
  Honorable John Holdren.........................................   106


                  STEM EDUCATION: THE ADMINISTRATION'S


                        PROPOSED REORGANIZATION

                              ----------                              


                         TUESDAY, JUNE 4, 2013

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to call, at 2:02 p.m., in Room 
2318 of the Rayburn House Office Building, Hon. Lamar Smith 
[Chairman of the Committee] presiding.

[GRAPHIC] [TIFF OMITTED] 81722.001

[GRAPHIC] [TIFF OMITTED] 81722.002

[GRAPHIC] [TIFF OMITTED] 81722.003

[GRAPHIC] [TIFF OMITTED] 81722.004

    Chairman Smith. The Committee on Science, Space, and 
Technology will come to order.
    Welcome to today's hearing, which is on the subject of 
``STEM Education: The Administration's Proposed 
Reorganization.'' Nice to see a full house today, and those who 
are standing, you are welcome to come forward if you can find 
some seats. And if not, you are welcome to stay where you are, 
too. I am going to recognize myself for an opening statement 
and then the Ranking Member for her opening statement.
    The topic of today's hearing is the President's Proposed 
Reorganization of Federal STEM education programs. The proposal 
is part of the President's Fiscal Year 2014 budget request to 
Congress and includes the consolidation of over 100 Federal 
STEM education programs.
    In order to achieve the innovations of tomorrow, we must 
better educate American students today. The Science, Space, and 
Technology Committee looks for ways not only to encourage 
students to study science, technology, engineering, and 
mathematics but also to inspire them to pursue careers in STEM 
fields.
    Unfortunately, America lags behind many other nations when 
it comes to STEM education. American students rank 23rd in math 
and 31st in science. This is not the record of a great country. 
And it is not the record of a country that expects to remain a 
world leader.
    The COMPETES Act of 2010 required the National Science and 
Technology Council to establish a committee on STEM. Today, 
this is commonly referred to as CoSTEM, which seeks to 
``coordinate Federal programs and activities in support of STEM 
education.'' CoSTEM was directed to develop and implement a 
five-year strategic plan for the coordination of Federal STEM 
programs.
    Unfortunately, the Strategic Plan was significantly delayed 
and was only received by Congress last Friday. The 
Administration proposed a reorganization of Federal STEM 
programs as part of the budget request in April, prior to the 
release of the final Strategic Plan.
    We need to carefully consider how best to streamline, 
coordinate, and consolidate programs that specifically engage 
children and the public in STEM subjects. Our country continues 
to face a fiscal crisis, and part of our challenge is how to 
achieve the most benefit from our limited resources in the 
current budget environment. More graduates with STEM degrees 
means more advanced technologies and a more robust economy. A 
well-educated and trained STEM workforce undergirds our future 
economic prosperity. But we have to capture and hold the desire 
of our Nation's youth to study science and engineering so they 
will want to pursue these careers.
    Our hearing today will help us evaluate if the 
Administration's proposal effectively accomplishes those goals.
    Now, that concludes my opening statement. And the Ranking 
Member, the gentlewoman from Texas, Ms. Johnson, is recognized 
for her opening statement.
    [The prepared statement of Mr. Smith follows:]
             Prepared Statement of Chairman Lamar S. Smith

    The topic of today's hearing is the President's proposed re-
organization of federal STEM education programs. The proposal is part 
of the President's FY14 budget request to Congress and includes the 
consolidation of over 100 federal STEM education programs.
    In order to achieve the innovations of tomorrow, we must better 
educate American students today. The Science, Space and Technology 
Committee looks for ways not only to encourage students to study 
science, technology, engineering and mathematics but also to inspire 
them to pursue careers in STEM fields.Unfortunately, America lags 
behind many other nations when it comes to STEM education. American 
students rank 23rd in math and 31st in science. This is not the record 
of a great country. And it is not the record of a country that expects 
to remain a world leader.
    The COMPETES Act of 2010 required the National Science and 
Technology Council to establish a Committee on STEM. Today this is 
commonly referred to as CoSTEM, which seeks to ``coordinate federal 
programs and activities in support of STEM education.'' CoSTEM was 
directed to develop and implement a five-year Strategic Plan for the 
coordination of federal STEM programs.
    Unfortunately, the Strategic Plan was significantly delayed and was 
only received by Congress last Friday. The Administration proposed a 
re-organization of federal STEM programs as part of the budget request 
in April, prior to the release of the final Strategic Plan. I hope our 
witnesses can tell us what was wrong with the programs the 
Administration wants to cut or consolidate.
    We also need to carefully consider how best to streamline, 
coordinate and consolidate programs that specifically engage children 
and the public in STEM subjects. Our country continues to face a fiscal 
crisis and part of our challenge is how to achieve the most benefit 
from our limited resources in the current budget environment. More 
graduates with STEM degrees means more advanced technologies and a more 
robust economy. A well-educated and trained STEM workforce undergirds 
our future economic prosperity.
    But we have to capture and hold the desire of our nation's youth to 
study science and engineering so they will want to pursue these 
careers. Our hearing today will help us evaluate if the 
Administration's proposal effectively accomplishes those goals.

    Ms. Johnson. Thank you very much, Chairman Smith, for 
holding this hearing, and thanks to all of our distinguished 
witnesses for taking time to appear before the Committee this 
afternoon.
    Improving STEM education is the United States--in the 
United States has been a major focus of mine since before I 
came to Congress and I am happy to see the increased focus on 
STEM education across the Nation. States, universities, 
companies, and nonprofits are working together in unprecedented 
ways to improve STEM education at all levels. We have also 
increased our efforts at the Federal level in both Congress and 
our agencies to improve the effectiveness of our STEM education 
investments.
    In the 2010 COMPETES reauthorization, this Committee 
required OSTP to form an interagency committee, which became 
known as CoSTEM, to coordinate Federal STEM programs on an 
ongoing basis and develop a five-year Strategic Plan for 
Federal investments in STEM education. I was very supportive of 
this mandate because I believed it was important to look at 
what the Federal Government has been doing and how we can 
improve our efforts. I appreciate all of the hard work that 
Federal education leaders--especially Mr. Melvin and Dr. 
Mundy--have put into developing the STEM education Strategic 
Plan.
    Unfortunately, prior to the release of the CoSTEM Strategic 
Plan, OMB included a proposal in the President's Fiscal Year 
2014 budget of a sweeping reorganization of Federal STEM 
education programs. In addition to being concerned about the 
process, I have serious concerns with the budget proposal 
itself. To be blunt, it seems to me that it was not very well 
thought out.
    While I have many questions and concerns, one point I want 
to emphasize here is the important role of NASA in supporting 
outreach activities and informal STEM education. NASA seems to 
have taken the biggest hit in the budget proposal, and this 
doesn't make any sense to me. I have visited many classrooms in 
my home State of Texas, and I can tell you there is nothing 
that can replace the excitement for kids of hearing directly 
from a NASA astronaut or visiting a NASA facility. Since the 
1960s, NASA has been key in encouraging students to study 
science and engineering and I hope we don't do anything to 
compromise this.
    That is just the beginning of my own concerns, and I am 
sure my colleagues on both sides of the aisle will have many 
questions about both the process and the specifics of the 
budget proposal. But in the end, all of us today share the same 
goal of improving the effectiveness and efficiency of Federal 
investments in STEM education.
    We have been investing a lot of money in many programs over 
many years, and while there are many positive anecdotes and 
some programs that have been evaluated rigorously, we are 
failing--falling much too short on evidence and accountability. 
This also applies to the programs to increase participation in 
STEM by females and underrepresented minorities. It is not 
enough just to fund these programs. We need to ensure that they 
are effective.
    Therefore, I hope we can use this hearing for more than 
just attacking the Fiscal Year 2014 budget proposal. The five-
year Strategic Plan that we just received on Friday after much 
delay is a separate document and hopefully one that stands on 
its own and remains viable even if Congress refuses to support 
the specifics of the Fiscal Year 2014 proposal. My hope is that 
the CoSTEM Strategic Plan can serve as a new starting point for 
more sensible and well thought out implementation steps in 
Fiscal Year 2015 and beyond, and I look forward to discussing 
this further with the panel today.
    It is our responsibility on this Committee to work with the 
agencies and the stakeholder groups to make sure that CoSTEM 
process we required in COMPETES is successful.
    I want to thank Chairman Smith again for calling this 
hearing and the witnesses as well for being here and I look 
forward to your testimony and a productive discussion. Thank 
you and I yield back.
    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of Ranking Member Eddie Bernice Johnson

    Thank you, Chairman Smith, for holding this hearing, and thank you 
to our distinguished witnesses for taking the time to appear before the 
Committee this afternoon.
    Improving STEM education in the United States has been a major 
focus of mine since I came to Congress, and I am happy to see the 
increased focus on STEM education across the nation. States, 
universities, companies, and nonprofits are working together in 
unprecedented ways to improve STEM education at all levels.
    We have also increased our efforts at the Federal level, in both 
Congress and our agencies, to improve the effectiveness of our STEM 
education investments. In the 2010 COMPETES Reauthorization, this 
Committee required OSTP to form an interagency Committee, which became 
known as CoSTEM, to coordinate federal STEM programs on an ongoing 
basis and develop a five-year strategic plan for federal investments in 
STEM education.
    I was very supportive of this mandate because I believed it was 
important to look at what the Federal government has been doing and how 
we can improve our efforts. I appreciate all of the hard work that 
federal education leaders, especially Mr. Melvin and Dr. Ferrini-Mundy, 
have put into developing a STEM education strategic plan.
    Unfortunately, prior to the release of the CoSTEM strategic plan, 
OMB included a proposal in the President's FY14 Budget for a sweeping 
reorganization of Federal STEM education programs. In addition to being 
concerned about the process, I have serious concerns with the budget 
proposal itself. To be blunt, it seems to me it was not very well 
thought out.
    While I have many questions and concerns, one point I want to 
emphasize here is the important role of NASA in supporting outreach 
activities and informal STEM education. NASA seems to have taken the 
biggest hit in the budget proposal and this doesn't make any sense to 
me.
    I have visited many classrooms in my home state of Texas and I can 
tell you there is nothing that can replace the excitement for kids of 
hearing directly from a NASA astronaut or visiting a NASA facility.
    Since the 1960s, NASA has been key in encouraging students to study 
science and engineering, and I hope we don't do anything to compromise 
this.That's just the beginning of my own concerns, and I'm sure my 
colleagues on both sides of the aisle will have many questions about 
both the process and the specifics of the budget proposal.
    But in the end, all of us today share the same goal of improving 
the effectiveness and efficiency of federal investments in STEM 
education. We've been investing a lot of money in many programs over 
many years, and while there are many positive anecdotes and some 
programs that have been evaluated rigorously, we are falling much too 
short on evidence and accountability.
    This also applies to the programs to increase participation in STEM 
by females and underrepresented minorities. It's not enough just to 
fund these programs, we need to ensure that they are effective.
    Therefore, I hope we can use this hearing for more than just 
attacking the FY14 budget proposal.
    The five year strategic plan that we just received on Friday after 
much delay is a separate document, and hopefully one that stands on its 
own and remains viable even if Congress refuses to support the 
specifics of the FY14 proposal. My hope is that the CoSTEM strategic 
plan can serve as a new starting point for more sensible and well-
thought out implementation steps in FY15 and beyond and I look forward 
to discussing this further with the panel today.
    It is our responsibility on this Committee to work with the 
agencies and the stakeholder groups to make sure the CoSTEM process we 
required in COMPETES is successful.
    I want to thank Chairman Smith again for calling this hearing, and 
the witnesses as well for being here. I look forward to your testimony 
and a productive discussion.

    Chairman Smith. Okay. Thank you, Ms. Johnson.
    You all heard the bells and they indicate that the votes 
have been called. We originally thought there were three votes; 
there are only two votes, so we should be able to return in 
about 30 minutes. And I hope you all will stay here and we will 
come back as soon as we can. I would also like to encourage all 
the Members who are here to return as well. We will resume this 
hearing immediately after that second vote. And until then, we 
will stand in recess.
    [Recess.]
    Chairman Smith. The Science, Space, and Technology 
Committee will reconvene. I will introduce our witnesses and 
then we will hear their testimonies.
    Our first witness today is the Honorable John Holdren. Dr. 
Holdren serves as the Director of the Office of Science and 
Technology Policy at the White House where he is both the 
Assistant to the President for Science and Technology and Co-
Chair of the President's Council of Advisors on Science and 
Technology, or PCAST. Prior to his current appointment by 
President Obama, Dr. Holdren was a professor in both the 
Kennedy School of Government and the Department of Earth 
Science at Harvard. Previously, he was a member of the faculty 
at the University of California Berkeley where he founded and 
led a graduate degree program in energy and resources. Dr. 
Holdren graduated from MIT with degrees in aerospace 
engineering and theoretical plasma physics.
    Our second witness is Dr. Joan Ferrini-Mundy, Assistant 
Director of the Directorate for Education and Human Resources 
at the National Science Foundation. From 2007 to 2009, Dr. 
Ferrini-Mundy was a member of the National Science and 
Technology Council Subcommittee on Education. She currently co-
chairs the Strategic Plan Workgroup of the NSTC's Committee on 
STEM education or CoSTEM. From 1999 to 2011, Dr. Ferrini-Mundy 
held an appointment at Michigan State University where she was 
a University Distinguished Professor of Mathematics Education 
in the Departments of Mathematics and Teacher Education and 
Associate Dean for Science and Mathematics Education in the 
College of Natural Science. Dr. Ferrini-Mundy was elected a 
fellow of the American Association for the Advancement of 
Science in 2011. She holds a Ph.D. in mathematics education 
from the University of New Hampshire.
    Our third and final witness is Mr. Leland Melvin, the 
Associate Administrator for Education at NASA. Mr. Melvin 
chairs the Education Coordinating Committee, an agencywide 
collaborative structure that maximizes NASA's ability to manage 
and implement its education portfolio. Mr. Melvin entered 
NASA's astronaut corps in 1998 and served as a mission 
specialist on two space shuttle missions to the International 
Space Station. Mr. Melvin earned a Bachelor of Science degree 
in chemistry from the University of Richmond where he also 
excelled as a wide receiver for the Spider Football team. He 
became an academic All-American and a University of Richmond 
Athletic Hall of Fame inductee. He was then drafted into the 
National Football League by the Detroit Lions in 1986 and also 
spent time at the Dallas Cowboys and the Toronto Argonauts. 
After injuries sidelined his football career, he returned to 
academia and earned his Master of Science degree in materials 
science engineering from the University of Virginia.
    We welcome you all and look forward to your testimony. And 
Dr. Holdren, if you will start us off.

            TESTIMONY OF THE HONORABLE JOHN HOLDREN,

                DIRECTOR, OFFICE OF SCIENCE AND

                   TECHNOLOGY POLICY (OSTP),

               EXECUTIVE OFFICE OF THE PRESIDENT

    Dr. Holdren. Well, thank you very much, Chairman Smith, 
Ranking Member Johnson, Members of the Committee. I am happy to 
be here today to discuss with you the current state of Federal 
support for science, technology, engineering, and math 
education--that is STEM education--in the context of the 
President's Fiscal Year 2014 budget; the five-year Strategic 
Plan for STEM education delivered to Congress last Friday; and 
our shared interest in improving the coordination, efficiency, 
and effectiveness of Federal STEM ed programs.
    I think all of us in this room understand that high-quality 
education in the STEM fields is essential not only to provide 
our citizens with the skills and training they will need to 
create and fill the high-tech businesses and jobs of the future 
but also to ensure that we have a science-savvy citizenry 
needed for a well-functioning democracy in an era when many of 
the issues facing government have significant science or 
technology content.
    The President certainly understands this and his Fiscal 
Year 2014 budget supports that recognition with a STEM 
education investment of $3.1 billion, a six percent increase 
over the 2012 enacted funding level. As important as that 
dollar amount, though, is the thought that the Administration 
has given to how to derive maximum value from this investment. 
That is the focus of the Administration's five-year Strategic 
Plan for STEM education recently submitted to Members of this 
Committee and others in Congress, and it is reflected in the 
STEM education reorganization proposals in the President's 
Fiscal Year 2014 budget.
    Before I describe the key elements of that reorganization, 
let me note that it is a priority of this Administration to 
leverage the Federal Government's direct investments in STEM 
education through partnerships with the philanthropic and 
private sectors, partnerships that to date have resulted in 
more than $700 million in contributions and in-kind services in 
support of our STEM education goals.
    The reorganization of the Federal STEM education programs 
proposed in the President's Fiscal Year 2014 budget would 
designate a lead Federal agency for each of four key families 
of educational activity. The Department of Education would have 
the lead for K-12 instruction, the National Science Foundation 
would have the lead both for undergraduate education and for 
graduate fellowships, and the Smithsonian Institution would 
have the lead for the informal education activities that 
typically take place outside the classroom.
    As part of the reorganization, 78 of the 226 STEM education 
programs currently spread across 13 different Federal agencies 
would be eliminated and another 48 would be consolidated within 
agencies. Ten new programs would be added, making 110 programs 
altogether going forward. The 78 programs that would be 
eliminated accounted in Fiscal Year 2012 for about $175 million 
or about six percent of the total appropriation for Federal 
STEM education activities in that year. Those savings would be 
distributed to the lead agencies, roughly 100 million to the 
Department of Education, 50 million to NSF, 25 million to the 
Smithsonian to help support their added responsibilities.
    The Proposed Reorganization was designed to preserve the 
most viable of the STEM education programs in the mission 
agencies, those most effectively leveraging unique agency 
assets were serving unique agency STEM education pipeline 
needs, and every agency that had a STEM education portfolio in 
2012 will continue to have one in 2014 with the addition of the 
Smithsonian making a total of 14 Federal agencies active in the 
STEM education domain. I believe that this new structure will 
help ensure that related programs are coordinated, redundancies 
are minimized, evaluation is improved, and resources are 
focused on programs that can deliver the most impact per dollar 
in their respective domains. I look forward to working with 
this Committee on our common vision for improving STEM 
education for all of America's students and I will be pleased 
to try to answer any questions the Members may have. Thank you.
    [The prepared statement of Dr. Holdren follows:]
    [GRAPHIC] [TIFF OMITTED] 81722.005
    
    [GRAPHIC] [TIFF OMITTED] 81722.006
    
    [GRAPHIC] [TIFF OMITTED] 81722.007
    
    [GRAPHIC] [TIFF OMITTED] 81722.008
    
    [GRAPHIC] [TIFF OMITTED] 81722.009
    
    [GRAPHIC] [TIFF OMITTED] 81722.010
    
    Chairman Smith. And thank you, Dr. Holdren.
    Dr. Ferrini-Mundy.

              TESTIMONY OF DR. JOAN FERRINI-MUNDY,

                ASSISTANT DIRECTOR, DIRECTORATE

               FOR EDUCATION AND HUMAN RESOURCES,

               NATIONAL SCIENCE FOUNDATION (NSF)

    Dr. Ferrini-Mundy. Good afternoon, Chairman Smith, Ranking 
Member Johnson, and other distinguished Members of the 
Committee on Science, Space, and Technology. My name is Joan 
Ferrini-Mundy and I am the National Science Foundation 
Assistant Director for Education and Human Resources. It is a 
pleasure to testify before you today on the Proposed 
Reorganization of Federal STEM education programs and to focus 
on the role of the National Science Foundation in STEM 
education.
    From its beginnings in 1950, the NSF has supported basic 
research and education across all fields of science and 
engineering. The Education and Human Resources Directorate has 
a unique Federal mission: supporting the preparation of a 
diverse, globally competent STEM workforce and a STEM-literate 
society. We do so by investing in research on and development 
of evidence-based models and materials and approaches to better 
understand and improve STEM learning and education for the 
Nation.
    Opportunities to learn STEM effectively are the foundation 
for the diverse, strong workforce that this Nation needs, yet 
today, the country is educating neither a diverse enough nor a 
strong enough STEM workforce to power our Nation's economy in 
the 21st century. NSF's ongoing investments in STEM education 
are intended to address those complex challenges.
    In the Fiscal Year 2014 President's budget request, NSF 
proposes a coherent framework of investment and undergraduate 
STEM education and an expansion of the Graduate Research 
Fellowship program, activities that build on ongoing NSF 
investment. In the Proposed Reorganization, NSF would have a 
government-wide leadership role for undergraduate STEM 
education improvement.
    A new NSF-wide activity, Catalyzing Advances in 
Undergraduate STEM Education, or CAUSE, will consolidate 
several programs from across the NSF and will emphasize the 
strong coupling of STEM disciplinary expertise with education 
research expertise to improve undergraduate persistence and 
diversity in STEM learning. Development of the framework for 
CAUSE will be undertaken across all of NSF in concert with 
other agencies that have been managing undergraduate programs. 
These conversations build upon and are guided by ongoing work 
of the NSTC Committee on STEM education, CoSTEM, to leverage 
the Agency's collective expertise and assets. At NSF, CAUSE 
will be implemented with full participation of the Science and 
Engineering Directorates.
    For Fiscal Year 2014 the President's budget also proposes 
that our long-standing successful Graduate Research Fellowship 
program be expanded into a National Graduate Research 
Fellowship program. This expanded program will facilitate the 
opportunities for fellows to gain special experiences and 
training in key STEM areas of particular interest to the Nation 
and to the mission agencies. It will also provide those 
agencies access to a large pool of fellows to consider for 
training that might be critical to their missions.
    The interagency working group on STEM graduate fellowships 
has been meeting since 2010 to share best practices in the 
administration of Federal graduate fellowship programs and it 
is now extending its work to collaborate on designing the 
expanded program.
    NSF is continuing its programs in informal STEM education 
and in K-12 STEM education. These programs focus primarily on 
STEM learning, research, and development. The evidence-based 
materials and models that result are then available for use at 
large scale through partnership and leveraging.
    CoSTEM has a task force called the Federal Coordination in 
Stem Education Task Force that I co-chair with Leland Melvin. 
This task force was charged to produce a five-year strategic 
plan for STEM education. Federal agencies, including the NSF, 
the Office of Management and Budget, and the Office of Science 
and Technology Policy all have participated actively in the 
discussions of this Committee, and earlier drafts of the plan 
have been available to inform the development of the 
Administration's Fiscal Year 2014 request, including the 
reorganization.
    The proposed Federal STEM education reorganization is 
designed to provide a coherent, cohesive set of STEM education 
programs to serve the Nation more effectively. NSF is committed 
to better coordination within our own organization and to 
participating in collaborations across agencies to leverage 
investments, all in support of the goal of improving STEM 
learning for the Nation.
    Thank you very much for the opportunity to testify today 
and thank you for your support of, and interest in, STEM 
education. I will be pleased to answer any questions that you 
and other Members of the Committee may have.
    [The prepared statement of Dr. Ferrini-Mundy follows:]
    [GRAPHIC] [TIFF OMITTED] 81722.011
    
    [GRAPHIC] [TIFF OMITTED] 81722.012
    
    [GRAPHIC] [TIFF OMITTED] 81722.013
    
    [GRAPHIC] [TIFF OMITTED] 81722.014
    
    [GRAPHIC] [TIFF OMITTED] 81722.015
    
    [GRAPHIC] [TIFF OMITTED] 81722.016
    
    [GRAPHIC] [TIFF OMITTED] 81722.017
    
    Chairman Smith. Thank you, Dr. Ferrini-Mundy.
    And Mr. Melvin.

               TESTIMONY OF MR. LELAND D. MELVIN,

             ASSOCIATE ADMINISTRATOR FOR EDUCATION,

                      NATIONAL AERONAUTICS

                AND SPACE ADMINISTRATION (NASA)

    Mr. Melvin. Thank you. Chairman Smith, Ranking Member 
Johnson, and Members of the Committee, thank you for today's 
invitation to talk about the Committee on Science, Technology, 
Engineering, and Mathematics Education and NASA's involvement 
in coordinating our STEM education assets with a broader STEM 
framework.
    When Congress formed NASA in 1958, it was with a bold goal. 
Your predecessors charged us to reach for new heights and 
reveal the unknown so that all we discover and all that we 
learn will benefit all humankind. This is what inspires us to 
come to work every single day. For me specifically, I know that 
the discoveries we make and the things that we learn are 
directly tied to the quality and quantity of future scientists, 
technologists, engineers, and mathematicians that are available 
and inspire to join us in our mission.
    To that end, NASA Education's vision is to advance high-
quality STEM education using NASA's unique capabilities. NASA's 
education programs are deliberate in developing and executing 
strategic partnerships with governmental, academic, industrial, 
entrepreneurial, and international communities to ensure NASA's 
education mission and vision are properly addressed.
    I am the Co-Chair of the Federal Coordination in STEM 
Education Task Force, which helped guide the development of the 
Administration's five-year strategic plan for STEM education. I 
am also NASA's representative on the CoSTEM. My staff has 
served in leadership roles on the Fast Track Inventory, 
Evaluation, and Cross-Agency Priority Goal Subcommittees and 
working groups. NASA enthusiastically supports greater 
coordination among the Federal agencies and strengthening the 
Nation's focus on STEM education. NASA also supports the STEM 
education reorganization proposal in the President's 2014 
budget.
    For over two years, 13 Federal agencies have contributed 
expertise from their education and technical workforce. The 
strategic plan that my Co-Chair, Joan Ferrini-Mundy and I 
provide a framework for increased collaboration among agencies. 
The plan strengthens accountability of Federal project 
managers, places an emphasis on rigorous evaluation, and 
establishes increased linkages between federal, state and local 
education efforts.
    NASA's education portfolio will focus on four priorities 
that contribute toward the Administration's STEM education 
goals. Those priorities are STEM engagement; NASA internships, 
fellowships, and scholarships; educator professional 
development; and institutional engagement.
    An overarching operating principle throughout NASA's 
portfolio is a focus on creating opportunities for diverse 
groups of institutions, educators, and learners. This includes 
women, minorities, and persons with disabilities. NASA will 
consolidate the education functions, assets, and efforts of the 
Mission directorate, offices, and field centers into a single 
STEM Education and Accountability Project managed by my office.
    As part of NASA's STEM interagency coordination effort, our 
available assets will support STEM activities that will be 
directed by the NSF, the Smithsonian Institution, and the 
Department of Education. This includes the infrastructure that 
supports the rigorous collection, evaluation, and dissemination 
of evidence of NASA's contributions to the Administration's 
goals.
    The Executive Office of the President recommended and the 
President accepted a Fiscal Year 2014 budget request based in 
part on the work of the Committee on STEM and the goals are the 
same. Representatives from the 13 Federal agencies will 
continue to meet to ensure the Federal assets are coordinated 
and put to use in support of the Nation's educators and 
learners. NASA is committed to close collaboration with other 
STEM agencies and to inspiring future generations to seek 
careers in aerospace.
    NASA has the ability to engage, educate, and prepare a 
future generation of explorers for employment in the aerospace 
fields. NASA's people, missions, and spirit of discovery 
inspire our Nation's youth to pursue STEM careers to benefit 
all of humankind.
    Thank you for letting me testify, and I am happy to take 
any questions you may have.
    [The prepared statement of Mr. Melvin follows:]
    [GRAPHIC] [TIFF OMITTED] 81722.018
    
    [GRAPHIC] [TIFF OMITTED] 81722.019
    
    [GRAPHIC] [TIFF OMITTED] 81722.020
    
    [GRAPHIC] [TIFF OMITTED] 81722.021
    
    Chairman Smith. Okay. Thank you, Mr. Melvin.
    I recognize myself for questions. And let me direct my 
first question to Dr. Holdren. Now, Dr. Holdren, I just want to 
understand the process a little bit better by which current 
programs were designated as low priority, and I am just curious 
as to who made the decisions and who evaluated those current 
programs. Was it your office? Was it the agencies themselves? 
Was it Office of Management and Budget, OMB? If you could 
explain the process to us.
    Dr. Holdren. Well, the process within the Executive Office 
of the President involved OMB, OSTP, the Domestic Policy 
Council, which has----
    Chairman Smith. Right.
    Dr. Holdren. --responsibility for education in general in 
the Executive Office of the President. Of course, all of us 
interacted. It was an iterative process. It involved, of 
course, the usual budget inputs from the various agencies, and 
it involved the use of a set of criteria that were developed 
out of various reports that had led up to this reorganization 
and had in part inspired the President to encourage it, 
starting with the PCAST report in September 2010 and continuing 
with the GAO report in January 2012.
    Chairman Smith. Whose idea was it--who came up with the 
original idea for consolidation and for elimination, that whole 
subject? Was that OMB?
    Dr. Holdren. No, I wouldn't say that that was OMB. I would 
say that, again, leading out of these major reports both from 
the Congressional side and from the Executive Branch side there 
was clearly a need to focus more resources on high-priority 
programs, and the only way you can focus more resources on 
high-priority programs in a highly constrained budget is to 
find lower-priority programs to reduce, and that is what we 
did. It wasn't fun. Those are tough decisions. They are the 
kinds of tough decisions that are made under constrained 
budgets with a focus on feeding the most important priorities.
    Chairman Smith. Okay. Thank you. I am glad the funding was 
increased, as you mentioned, by six percent. That is a good 
sign.
    Dr. Ferrini-Mundy, why was the strategic plan not proposed 
when the budget was released last April? By coming out with the 
strategic plan after the budget, in fact just last Friday, it 
seems to me that it has made CoSTEM almost irrelevant. In other 
words, it would have been, I think, a lot more helpful had the 
strategic plan come out either before the budget or concurrent 
with the budget and I just was going to ask for an explanation.
    Dr. Ferrini-Mundy. Thank you for your question, sir. The 
team that has been working on the budget has been working 
diligently for some time and we were well aware when we 
produced our progress report last spring that the work that it 
would take to get from there to a final strategic plan would be 
considerable. And, as you know, the strategic plan is a very 
detailed plan that goes into substantial commentary about how 
we will move forward with implementation. We wish it had been 
earlier, but we were happy with the plan--or I am happy with 
the plan that we have.
    I think also the principles that are in the strategic plan 
are quite aligned with the President's Proposed Reorganization.
    Chairman Smith. Well, that is really no surprise since it 
came out after the President's budget, right?
    Dr. Ferrini-Mundy. Well, the principles that were in place 
even last year in the progress report, too, were still in 
place, right, principles of coordination----
    Chairman Smith. Right.
    Dr. Ferrini-Mundy. --and consolidation.
    Chairman Smith. Did you make any changes as a result of the 
budget?
    Dr. Ferrini-Mundy. The development of the strategic plan 
was an ongoing process and we--of course, we were working 
through that around the time of the budget release and beyond.
    Chairman Smith. Okay. Thank you.
    Mr. Melvin, how did you like the Dallas Cowboys?
    Mr. Melvin. Well, they cut me so they are not my favorite--
--
    Chairman Smith. I think you know this next question is 
coming. You are a former astronaut. You have seen NASA from the 
inside out, from the outside in, from 200 miles up. NASA's STEM 
programs were cut by 1/3 from 150 million to 100 million, $50 
million. Do you support those cuts?
    Mr. Melvin. Well, as a member of the CoSTEM, we have been 
working very hard with the other mission agencies. We have been 
very focused on bringing our unique assets forward to be part 
of this President's budget. No one likes to be cut, but this is 
something that we are going to do to help bring our best assets 
forward to support the Administration's budget. So it is a 
fairly big cut but we have to make----
    Chairman Smith. Well, it wasn't your idea, was it?
    Mr. Melvin. NASA was part of the CoSTEM process, so 
whatever pieces of the CoSTEM process that filtered into this 
budget process that was there. But I didn't come up with the 
idea, no.
    Chairman Smith. Okay. Thank you. I appreciate your answers 
and that--yield back the balance of my time and recognize the 
Ranking Member, Ms. Johnson, for her questions.
    Ms. Johnson. Thank you very much. Let me first make a 
little comment that could be considered a little catty. You 
know, I just appreciate the fact that you can sit there and 
smile and bring us this report that you put together, and I 
know how hard it is to try to work within budgets now. I have 
received so many calls and letters from organizations 
expressing concerns because they feel that the nonfederal 
stakeholders--school districts, universities, science museums, 
and many other nonprofit organizations--had no opportunity to 
have any input. So I am hoping that you will continue to work 
with that. And in view of that, I notice that you have 
Smithsonian as a lead agency, and I would just like to have 
some rationale for that and how they feel about it.
    Dr. Holdren. Well, I am happy to take that on. First of 
all, the rationale for it is the Smithsonian has enormous 
experience and expertise and success in programs of engagement, 
of reaching out to very broad communities with educational 
materials, with inspiring materials, and we feel that by giving 
the Smithsonian a coordinating role in those engagement 
activities, we will bring more coherence and coordination to 
them and we will have in the Smithsonian a--sort of a central 
clearinghouse for the development of new materials in which all 
the mission agencies will contribute.
    The idea is not to eliminate access to the assets of the 
mission agencies that have been engaged in this multiplicity of 
outreach programs. We are reducing the multiplicity in the 
agencies, but a lot of what is being reduced in specific named 
programs in the agencies will be picked up and coordinated by 
the Smithsonian. The Smithsonian has an Office of Education and 
Access. They have an Assistant Secretary for Education and 
Access. They have an infrastructure. They are getting $25 
million to do this. Our expectation is that this will actually 
improve the engagement activities in the STEM Ed field across 
the Federal Government.
    Ms. Johnson. Thank you. Now, I would take that $25 million, 
too, and with a smile on my face, but I can't understand. They 
have no federal research facilities; they have no external 
grant-making power. And not having the kind of national 
stakeholder networks that have been built over the decades with 
these other agencies gives me somewhat of a concern. Have you 
set up some type of communication network that would perhaps 
bring a bit more expertise or knowledge, or do you plan to 
staff it with someone who has had experience in some of the 
labs and other scientific endeavors?
    Dr. Holdren. Well, first of all, we already have the 
Smithsonian engaged with the rest of CoSTEM in the process of 
working out in detail how this reorganization would be 
implemented if in fact it is approved by the Congress. And the 
Smithsonian folks who are participating in that process have 
pledged to interact very closely with all the mission agencies 
that they would be helping with their public engagement 
efforts.
    We intend for CoSTEM, the Committee on STEM education of 
the National Science and Technology Council, to be the 
continuing forum where all of the stakeholders come together, 
where they can express their concerns if they have concerns. If 
things are not working out as planned, if important activities 
are being neglected, CoSTEM will be the forum where that comes 
out and is addressed. And I can give you my personal commitment 
as Co-Chair of the CoSTEM--in addition to chairing the NSTC--
that we intend to carry out that function.
    Ms. Johnson. Okay. So you will have active participants 
helping to develop this effective network to carry this out. 
Will this be an additional staff, I guess, with the 25 million 
and you would put together expertise?
    Dr. Holdren. Yes, there will be additional staff at the 
Smithsonian, and again, they will be interacting with staff 
across all the mission agencies and of course in the Executive 
Office of the President.
    Ms. Johnson. Thank you very much. I yield back.
    Chairman Smith. Thank you, Ms. Johnson.
    The gentleman from Texas, the Chairman Emeritus, Mr. Hall, 
is recognized.
    Mr. Hall. Well, thank you, Mr. Chairman.
    I will have a question of Dr. Holdren. I have a real 
problem. I remember things. And I remember back--sometime back, 
Mr. Chairman, when we came in one vote of losing NASA, and then 
the next year, if you remember--I am not sure you were here 
then--Dr. DeBakey came and walked this whole building out and 
we carried the vote by over 100 votes.
    That was a frightening thing, but I also remember when we 
had Gina McCarthy here before us and we were talking about jobs 
and her refusal to use science in making her decisions that 
affected people and jobs, and her answer was this, ``I don't 
want to give the impression that EPA is in the business to 
create jobs.'' I think one of the meanest things I have ever 
heard anybody say with the situation like it is today, people 
going home telling their daughter they can't keep her in school 
or whatever, whatever.
    But Dr. Holdren, you made some statements and I imagine you 
might like to change some time, but in 2010 you were quoted as 
saying ``we can't expect to be number one in everything 
indefinitely'' at the American Association for the Advancement 
of Science. And is this still your view?
    Dr. Holdren. Well, Congressman Hall, first of all, I would 
say that we are in difficult budgetary times. We are making 
tough choices.
    Mr. Hall. I know that. Is this still your view? No matter 
how you reach that attitude, is this still your view, yes or 
no?
    Dr. Holdren. I think it is already true, Congressman Hall, 
that the United States is not number one in every aspect of 
every scientific field, and we have to make choices. We have to 
decide which are--the most important areas are and which we 
need to lead, and we need to invest in those, just as within 
STEM education we need to invest in the highest-priority 
propositions, the one that--the ones that have the potential to 
really lift our game in STEM education and make us overall 
continuingly the world's leading science and technology nation, 
which we remain today and we want to remain so in the future.
    Mr. Hall. Well, you are certainly not attaining that. You 
are not going in that direction, sir. I guess my question when 
I ask you is this still your view, I will ask a second 
question: does a Proposed Reorganization help to target areas 
where the United States can and should strive to be number one 
or does it do this?
    Dr. Holdren. An area in which we are striving to be number 
one, sir, is STEM education, and that is what this proposal is 
all about.
    Mr. Hall. And where are we?
    Dr. Holdren. Well, right now, if you look at the rankings 
of math scores, science scores around the world, the United 
States is unfortunately only in the middle of the pack. We are 
indeed no longer at the top of the pack in terms of the 
proportion of our young people who get a college degree of any 
kind.
    The President has made very clear that he wants to change 
that. He wants to bring us back to the top of the pack both in 
the comparative scores in math and science across countries and 
back to the top of the pack in terms of the proportion of our 
young people who graduate from college.
    Mr. Hall. And how do you do that? You know, I will follow 
up with you on this. The participation of NASA's scientists and 
engineers in these education programs provides a human 
dimension to the inspiring work done by NASA. These scientists 
and engineers also provide role models for students--role 
models, you hear that--for students to enter into STEM careers 
without the participation of NASA scientists and engineers. How 
are you going to connect teachers, students, and the public to 
NASA's inspiring work and workforce and expect to get to be 
number one by the actions that you are taking place now over at 
the Administration?
    Dr. Holdren. We are not going to lose the participation of 
NASA scientists and engineers in classrooms with teachers, with 
kids, inspiring kids. We are taking a part what NASA has been 
doing in that domain and consolidating some of it so that we 
can better evaluate it and decide which are the most effective 
programs. And some of it will be worked in partnership, as I 
noted, with the Smithsonian Institution, which is expert in 
these outreach and engagement activities. But we are by no 
means even coming close to eliminating the engagement of NASA 
scientists and engineers in these highly valued activities.
    Mr. Hall. You really aren't, sir, and I agree with you on 
that. I just don't understand why you refuse to encourage EPA, 
your partner in--I am not going to say your partner in crime 
because that is--that wouldn't be correct, but your partner in 
really hurting small companies and hurting the continuation of 
people obtaining jobs, because if you keep on going the 
direction you are going, we not only are not going to have any 
jobs, we are not going to have any employers. So I guess 
without the participation of NASA scientists, I don't know how 
you are going to connect teachers and students and the public 
inspiring the workforce with the direction you are going in.
    And I thank you for your answers. I yield back.
    Chairman Smith. Thank you, Mr. Hall. And the gentlewoman 
from Oregon, Ms. Bonamici, is recognized.
    Ms. Bonamici. Thank you very much, Mr. Chairman.
    Thank you so much to all the witnesses for your testimony 
about what we can do--what the Federal Government can do to do 
better with STEM. This is a Proposed Reorganization and it is 
change. Change is difficult. There is a lot of change here.
    An important part of this conversation is how to make STEM 
instruction and programming engaging and more effective. And I 
join the growing group of stakeholders who submit that 
integrating the arts and design into STEM--that makes STEAM--
can help make the difference. This is especially compelling 
when we are talking about how to engage underserved 
populations, including females and minorities, traditionally 
not involved in STEM. I am pleased that the NSF has funded the 
SEAD network, which stands for Sciences, Engineering, Arts, and 
Design. The group is in the midst of some fascinating work on 
the integration of the disciplines.
    Also, recent research at Michigan State University, Dr. 
Ferrini-Mundy, it is maybe your former colleagues--professors 
found that there are 14 measurable skills linked to success in 
sciences that are directly linked to arts education. This is 
about using both halves of the brain and innovation. Those 
skills include observing, imaging and visualization, 
abstracting, pattern recognition and pattern invention, 
analogizing, dimensional thinking, transforming data into 
visual or graphic forms, converting theories into mechanical 
procedures, and more.
    When developing this reorganization proposal, did the 
Administration consider innovative approaches that include 
multidisciplinary collaboration in order to encourage 
traditionally unrepresented groups to become more involved in 
STEM education programs?
    Dr. Holdren. I guess I am supposed to take the first crack 
at that. Certainly, we looked at a variety of issues around 
traditionally underrepresented groups, and one of the decisions 
we made is, for now, there are no changes being proposed in the 
range of programs that explicitly address minorities and other 
underserved groups in the STEM domain. We think to the extent 
that those programs need a closer look it should be done in 
close collaboration with the institutions that provide those 
programs. So that is something that is a task going forward.
    Ms. Bonamici. Dr. Ferrini-Mundy?
    Dr. Ferrini-Mundy. Yes, thank you. I think both within--
certainly in the CoSTEM plan and in the Proposed 
Reorganization, the focus on engagement is the place where 
there will be enough space and opportunity, I think, to really 
explore these exciting connections with the arts. We at the 
National Science Foundation are engaged in some discussions 
with NEH and NEA at this time to think about what it might look 
like to fund some explorations in the role of the arts in 
promoting engagement in STEM education. And so I think we have 
the infrastructure in place to be able to really take up these 
questions within the engagement component.
    Ms. Bonamici. Okay. Thank you very much. And I also want to 
ask about a program that is being used by the Oregon Health and 
Science University; that is the Science Education Partnership 
Award. I think it is called SEPA. This program that is 
administered by NIH, it funds innovative K-12 and informational 
science education, health education projects.
    In Oregon, there is a program called Let's Get Healthy. It 
has been a success since it began in 2007. It provides valuable 
education about diet and nutrition at health fairs and 
underserved communities. So OHSU, the university, has used 
grant money through SEPA to fund these programs, and with this 
consolidation, there is some concerns raised in the health 
community about shifting authority to NSF, Department of 
Education, and the Smithsonian that don't have a public health 
focus. So can you talk a little bit about SEPA under the 
reorganization? And additionally, if a program like Let's Get 
Healthy is shifted to the Smithsonian, how would States apply 
for grants considering that the Smithsonian lacks authority to 
issue grants?
    Dr. Holdren. I guess in terms of the details of exactly how 
these collaborative activities would work under the new 
structure, you know, I have to say that that is something that 
is being worked out. We are working on it in the CoSTEM 
Committee and we are determined to figure it out in a manner 
that will not lose the effectiveness of the engagement programs 
that already exist. And again, we have the commitments of all 
concerned.
    We had as recently as last Thursday a meeting of the full 
CoSTEM in which all of the relevant departments and agencies 
were represented, and we talked about this in detail. And the 
folks around the table were in agreement that we will be able 
to work together to ensure that the implementation details are 
developed in a way that preserve these important functions. 
That is our commitment. That is our determination.
    Ms. Bonamici. Thank you. And I see my time is expired. I 
yield back. Thank you, Mr. Chairman.
    Chairman Smith. Okay. Thank you.
    And the gentleman from Illinois, Mr. Hultgren, is 
recognized.
    Mr. Hultgren. Thank you, Mr. Chairman.
    Thank you all for being here today. I appreciate the work 
that you are doing and these important discussions that we are 
having today.
    Dr. Holdren, I wondered if I could start with you. I have 
heard from many members from the Illinois science community 
concerned about multiple aspects of the President's proposal. I 
am normally one who is very supportive of consolidating 
duplicative or overlapping Federal programs, but I share a 
number of concerns with our community because the President's 
proposal seems like it is taking a number of successful 
initiatives being done by high-quality institutions at the 
local level and running a majority of the future initiatives 
through a central bureaucracy at the Department of Education in 
Washington. I have got concerns about this approach as well as 
other aspects of the proposal that seem rushed or poorly 
planned out.
    Dr. Holdren, why eliminate these grant programs or, in the 
case of Smithsonian, consolidate them into a single pot for a 
single institution with limited or no grant-making experience 
when there are others outside the Beltway, like the Museum of 
Science and Industry in Chicago, that are providing these exact 
meaningful STEM experiences and opportunities for our Nation's 
youth? And exactly how will the funds be expended and who will 
provide oversight? I am wondering specifically with 
Smithsonian, how will those projects the Smithsonian proposes 
to fund be subject to peer review prior to funding?
    Dr. Holdren. I am afraid I am going to find myself offering 
the same answers over and over again. That is, when you ask 
about oversight, the Committee on STEM education--which I co-
chair with the NSF Director--will be providing oversight and of 
course reporting back to the EOP but will have the 
participation of all of the affected individuals.
    When you ask why should we take successful programs and 
stop funding them or why should we take successful programs and 
move them, we went through a long process of trying to decide 
where we could effectively consolidate, where we could cut in 
order to provide more resources for the highest priorities, all 
of the reviews of STEM education programs and the Federal 
Government that have been done.
    And again, I say those have been done on the congressional 
side, by the GAO. They have been done on the White House side, 
by PCAST. They have been done by CoSTEM coming out with the 
progress report in February 2012. Every one of these reviews 
said our programs are too dispersed. They are not coordinated 
enough. Many of them are not evaluatable enough. We have no 
good way with this degree of dispersion of doing the sort of 
coordination, creating the efficiencies, doing the evaluations 
that we need, nor do we have any way to free up resources for 
the high priorities such as creating 100,000 new high-quality 
STEM ed teachers over the next decade or graduating an extra 
million----
    Mr. Hultgren. Let me get to my point real quick here 
because, again, I don't want you to repeat answers over and 
over again. I do understand what you are saying. I just am 
concerned when you add layers of bureaucracy, it doesn't reduce 
costs; it increases costs and certainly makes things, I think, 
more expensive and the potential taking away programs that are 
being very effective.
    Specifically, you know, what can I say back to the Museum 
of Science and Industry doing great STEM education programs to 
alleviate their concerns?
    Dr. Holdren. Well, what I would say to the Museum of 
Science and Industry is under the new system--again, assuming 
it is approved by the Congress--the Museum of Science and 
Industry, which already has an excellent relationship with the 
Smithsonian, will be able to use that relationship to find 
resources and means of continuing the high-quality activities 
in which they are engaged.
    Mr. Hultgren. Dr. Ferrini-Mundy, how will NSF and 
Department of Education address bio-STEM programs since 
training and preparing for a bio workforce isn't really part of 
their core missions? How specifically will you support health-
focused K-12 education programs?
    Dr. Ferrini-Mundy. Thank you for the question. At this 
point, we do not support biomedical areas at the National 
Science Foundation but, of course, at the K-12 level there is 
great interest in general preparation in all of the sciences, 
particularly the biological sciences. And we have a number of 
programs at NSF that would be available for groups that are 
interested in improving the instruction in biology at the K-12 
level.
    Mr. Hultgren. Let me move on. I just have a little bit of 
time left. But Mr. Melvin, I wondered if you could quickly 
address--you know, what, I shouldn't have run out. This time I 
have a long question. Would it be all right if I follow up with 
a question maybe that you could respond in writing to if that 
is all right? I don't want to----
    Mr. Melvin. Yes, sir.
    Mr. Hultgren. --take up too much time from the Committee. 
So I have got a long question that I will forward on to you if 
that is all right. Thank you very much. I yield back the 
balance of my time.
    Chairman Smith. Thank you, Mr. Hultgren.
    The gentleman from Massachusetts, Mr. Kennedy, is 
recognized for his questions.
    Mr. Kennedy. Thank you, Mr. Chairman. And I want to thank 
the Chairman and Ranking Member for holding what I believe is 
an extremely important hearing. And I want to thank our 
witnesses for the research and the tremendous amount of legwork 
that you have put in in preparation today and for being here to 
testify.
    I have got two basic questions for all the panelists if I 
may. First, higher education is an essential part of our STEM 
efforts but I worry that, in my review of the report, we miss a 
critical area of the middle-skilled job training, jobs that 
require a high school diploma and maybe some additional 
coursework and certification but not necessarily an 
undergraduate degree.
    I represent a district in Massachusetts that has several 
former industrial cities that have suffered from the economic 
downturn in traditional manufacturing, cities like Attleboro 
and Fall River. I see STEM education as a critical component in 
ensuring that our citizens are ready to seize jobs in 
industries like advanced manufacturing, clean energy, and IT, 
but I couldn't find one mention of vocational schools in your 
report and only limited mention of community colleges and 
associate's degree programs at all. I was hoping that you might 
be able to shed some light as to: one, how the Administration 
believes these programs fit into the broader STEM goals; and 
two, how the strategic plan factors them in, if it all.
    And then, related to that, I applaud the work that you have 
done focusing on minority communities and certainly female 
participation in STEM fields, and I know that you have put a 
great deal of focus on that. I would like to hear a little bit 
more about that and how we plan to achieve that.
    Beyond that, I was wondering how the plan will assist the 
economically disadvantaged. So there are far too many 
economically distressed communities around the country, 
certainly in Massachusetts and in some of the communities that 
I just mentioned. I believe that STEM fields are a crucial and 
critical way to increase economic development and provide 
opportunities to all students. How can we ensure that the 
expansion of STEM efforts includes those communities as well? 
So just briefly, I guess, the economic disadvantaged portion of 
it and vocational schools and community colleges.
    Dr. Holdren. Well, I will take an initial crack and then 
see what my colleagues have to add.
    With respect to middle-skilled job training, this is 
actually something the Administration has been looking at and 
working with the private sector and the community college 
sector to engage on a regional basis, the companies that 
operate in a given area and the community colleges, so that the 
curricula at the community colleges will reflect the kind of 
training that people need to get jobs in their region. And this 
is something that has been proceeding under the broad rubric of 
the Educate to Innovate initiative where we have had a huge 
amount of private and philanthropic collaboration with the 
Federal Government.
    It has certainly been a theme for the President which he 
has commented on and visited--made a number of visits 
emphasizing this particular theme and its importance. So we are 
certainly in agreement with you on the importance of that issue 
and the value of getting corporations to work in concert with 
our committee colleges to get kids better educated for the 
kinds of jobs that are going to be there.
    The other thing I would say is that the efforts we are 
making on K-12 education are going to prepare people better for 
the post-high school education, whether it is in a community 
college or research university or a liberal arts college. It 
will prepare people better to engage in and succeed in STEM 
fields in ways that will help those that do not go on for a 
four-year degree nonetheless get high-skills jobs.
    Mr. Kennedy. Doctor?
    Dr. Ferrini-Mundy. Thank you for your questions.
    Just briefly on the focus on higher ed, of course, the main 
focus on undergraduate education in the CoSTEM report does 
include all institutions of undergraduate education. And the 
major focus on retaining students at the undergraduate level, 
whether they are in two-year technical colleges or four year 
schools is crucial, and that hinges on excellent instruction, 
evidence-based processes for keeping students interested and 
engaged. So I think the plan again has the space for us to 
focus heavily on the preparation of the technical workforce, 
and there are a number of programs at the--certainly at the 
National Science Foundation.
    I would cite the Advanced Technological Education program, 
which is all about preparing technicians who are ready to work 
in emerging areas of science and manufacturing and so forth.
    As for focus on economically disadvantaged students, again, 
I think that the K-12 focus in the strategic plan, as well as 
the focus on underrepresented minorities, will both serve to 
help us ensure that high-needs schools are well served, and 
again, it will occur through partnerships among multiple 
agencies in part making sure that students in high-needs areas 
get good access to the STEM assets of the Federal agencies. 
Ideally, this plan will make more of that possible.
    Mr. Kennedy. I would really like to follow up. We can 
follow up and writing but it just--how you plan to do that 
would be great. And, Mr. Melvin, I will ask--I am out of time 
but I am sorry you might have some busy writing to do. My 
apologies.
    Chairman Smith. That is--Mr. Melvin, if you want to respond 
to the question, that is fine.
    Mr. Melvin. Well, just in the community college area, we 
have a program at NASA called the Curriculum Improvement 
Partnership Award program, and that focuses on helping 
strengthening community colleges using NASA content curriculum. 
It also supports skills in faculty members to do research in 
ensuring that underrepresented, underserved teachers and 
students in community colleges have that access. So that is 
something that we plan to continue moving forward with our 
program in the future.
    Mr. Kennedy. Thank you, sir. Thank you, Mr. Chair.
    Chairman Smith. Thank you, Mr. Kennedy.
    The gentleman from Indiana, Mr. Bucshon, is recognized for 
questions.
    Mr. Bucshon. Thank you, Mr. Chairman. Thank you to all the 
witnesses and for your time and preparation for this hearing. I 
am all for consolidation and streamlining the process at the 
Federal level and thanks for your work on that. My questions 
are more technical about how you decided on which programs, and 
some of those questions have been answered already, but the 
focus on accountability and success of programs and if there 
were specific metrics that you used to assess that, and how 
many programs that you actually eliminated and actually had 
data available for your use in assessing whether or not they 
were successful or not? I will start with Dr. Holdren first.
    Dr. Holdren. Okay. First of all, we had sort of a number of 
layers of criteria that we used in this sorting process, and 
one was to look at the priority areas that were identified in 
the CoSTEM process, including in the progress report that came 
out in 2012. And those priority areas were improving K-12 
instruction, reforming undergraduate education around evidence-
based practices, streamlining the graduate fellowship process, 
and amplifying engagement activities.
    So we looked, first of all, to give priority to programs 
that addressed one of those four goals. Within that framework, 
we also tried to look, as your question suggests, at evaluation 
and ask, for which of these programs do we have evaluations? 
For the ones that we don't have evaluations for, how 
evaluatable are they? Do we have a reasonable prospect of 
developing evaluations? And of course we had to take into 
account the inefficiency of trying to run rigorous evaluations 
on very small programs. This is one of the reasons for 
consolidating, to improve one's capacity to evaluate.
    So all of those considerations were taken into account in 
this process, which I have described as an iterative process in 
which OMB, OSTP, Domestic Policy Council all participated.
    Dr. Ferrini-Mundy. Thank you. I am not sure that I have a 
lot to add other than that the report itself, the strategic 
plan, is very clear about the importance of evaluation and of 
metrics with a lot of focus on developing common metrics across 
programs in these four--in these five areas of focus. And I am 
very optimistic that this is going to lead to even stronger 
evaluation efforts when we combine our resources and expertise.
    Mr. Bucshon. Yes, I mean I would say going forward that 
with this experience--from what you are describing, a lot of 
the programs don't really have metrics and don't have a way to 
assess them. And going forward, programs probably should have 
those in place if we don't already have those because I am also 
on the Education Workforce Committee. I am very interested in 
these particular subjects. And as you probably know, across the 
Federal Government, not only in this area but other areas, we 
have all kinds of programs that haven't been evaluated for 
their success in decades, literally decades, and I would 
encourage you to make sure that you have metrics and evaluation 
process in place.
    The other thing I see that--it actually goes from 13 to 14 
Federal agencies involved in the STEM education process, and, 
you know, when you consolidate programs or eliminate programs, 
are we actually going to downsize so to speak or make more 
effective and efficient the Federal Government or are we just 
going to have less programs on the books but really the 
bureaucracy hasn't significantly changed? In fact, it has been 
shifted to make it even maybe more difficult?
    Dr. Holdren. We don't think it is--would be shifted under 
this proposal to be more difficult or to have additional 
layers. We think the fragmentation rather has been a source of 
inefficiency. And again, I would point out that that was the 
conclusion of the GAO that said very forcefully that we need to 
reduce fragmentation, we need to increase coordination, and we 
need to increase focus on the highest priorities. PCAST found 
the same thing. CoSTEM found the same thing.
    Mr. Bucshon. And just so you know I agree with that. I just 
find that a lot of times when we, so to speak, consolidate and 
streamline programs, we actually don't change a lot except the 
paper--on paper and whether or not behind the scenes we 
actually are making a dent in the bureaucracy. Are we making it 
more effective and efficient or are we just putting less 
programs continuing to be in an ineffective and inefficient 
system?
    Dr. Holdren. I understand the concern. Our aim is to avoid 
that problem.
    Mr. Bucshon. I would agree. I yield back, Mr. Chairman.
    Chairman Smith. Thank you, Mr. Bucshon.
    The gentleman from California, Mr. Bera.
    Mr. Bera. Thank you, Mr. Chairman. Thank you, Ranking 
Member. And I thank the witnesses for being here.
    You know, I would echo some of the concerns or thoughts of 
my colleagues from Indiana. Change for the sake of change is 
not necessarily good nor a bad thing, so without drawing a 
conclusion as to whether this change is a good change or a bad 
change, what is important though is that we evaluate metrics 
that say, okay, we are going to consolidate. We are going to 
try to become more efficient. We are going to try to eliminate 
redundancy. And I would just emphasize as we undergo this 
transition that we make sure we have those metrics in place so 
we are measuring whether we are actually becoming more 
efficient, whether we are actually advocating for our goals.
    That is not my question, however. You know, listening to 
Mr. Kennedy, I also have a concern. You know, we have been hard 
hit in the recession and, you know, particularly in that 
workforce that is in their 30s to 40s, you know, individuals 
that are well-educated, individuals that received an education 
and training that prepared them for the 20th century workforce. 
Unfortunately, we are now in the 21st century and things are 
rapidly changing.
    I want to make sure when we are thinking about training a 
STEM workforce, there is this large group of individuals that 
are highly educated, very motivated to get skill sets to fill 
the workforce needs that we have. And in this consolidation, 
you know, I see where we are directing funds to K-12, I see 
where we are directing funds to undergraduate and graduate 
education, but these are individuals that don't need to go back 
and get an undergraduate degree or even a graduate degree. They 
may need to get one year of on-the-job training so they could 
rapidly fill some of these jobs. And, you know, I would wonder 
where those of programs fit in a more consolidated program.
    Dr. Holdren. Let me first resoundingly agree with the 
concern you expressed about metrics, and if you look at the 
strategic plan, there is really a tremendous amount of analysis 
that has gone into the specific question of metrics and what 
metrics we expect to use for all of the programs that are 
ongoing. So we completely agree with that.
    On the retraining issue, I would admit that that was not a 
primary focus of the CoSTEM. And the primary focus was, as you 
point out, K-12 now changed to P-12, that is pre-K-12, 
undergraduate education, graduate education. That is already a 
very big agenda, but the retraining question is an important 
one and one in which I think, you know, a lot of effort is 
going on out of the Department of Labor and elsewhere. But 
maybe my colleagues have more to add on that.
    Dr. Ferrini-Mundy. I would just add quickly that whether 
the retraining occurs in formal undergraduate degree programs 
or bachelor's or associate's degree programs or in certificates 
or badges or other approaches, there still is the central 
problem of designing instruction and curriculum in ways that 
will enable students to learn the kinds of skills that industry 
demands, and we learned a lot about that through the 
undergraduate focus.
    Mr. Melvin. I think Joan and I were at a conference last 
week and we saw this whole fusion of the social world with the 
academic world with the workplace world. How do we get kids to 
start thinking about themselves and bridging these different 
gaps? The arts are in there, too. So I think one of the things 
that we took back and we--this is a five-year strategic plan. 
The first year is the implementation phase. We will iterate and 
figure out what are the things that we need to ensure that the 
students see themselves after they graduate and how they can 
look at new careers, maybe new interests? The visual badging 
was one of the pieces that they talked about where students can 
do online badging and get certificates for it. They actually 
get college credit for it. So how can we use those types of 
things also in this new paradigm?
    Mr. Bera. Well I would add as you go back and consider the 
changes that will be taking place that we don't just think 
about, you know, the folks at the beginning phase of their life 
as well as those in undergraduate and graduate education, that 
there really is an incredible talent pool here of individuals 
that we can rapidly train and we probably do this most 
efficiently through public-private partnership where in my own 
community we have a large Intel presence and they are very much 
engaged in, you know, both going into the K-12 classrooms with 
Project Lead the Way and some of their programs that they are 
fending, but many of these technology companies are also taking 
a chance on this workforce and training them on the job and I 
would ask us to be open to directing resources in an efficient 
way to the private sector. So I will yield back.
    Chairman Smith. Thank you, Mr. Bera.
    The gentleman from Florida, Mr. Posey, is recognized for 
his questions.
    Mr. Posey. Thank you, Mr. Chairman. And thank you, 
witnesses, for your appearance and your testimony and your 
answers to questions.
    Can any of you advise me if the Common Core Initiative is 
at all tied in with the new STEM programs you propose?
    Dr. Ferrini-Mundy. Thank you for the question. Our 
proposals and the CoSTEM strategic plan are very general and 
they aim for quality instruction at K-12 and aim for improved 
undergraduate education, graduate fellowships, and groups that 
have traditionally been underrepresented with STEM along with 
engagement. So they don't speak directly to the Common Core 
Initiatives.
    Mr. Posey. Okay. Doctor?
    Dr. Holdren. I agree with my colleague's testimony.
    Mr. Posey. Okay.
    Mr. Melvin. Likewise.
    Mr. Posey. All right. So there is no connection whatsoever 
to the proposed STEM programs and the Common Core Initiatives? 
We agree unequivocally?
    Dr. Ferrini-Mundy. I am going to say a little bit more then 
on this point. The Common Core Initiative is an activity 
underway in parts of the country, and so as these investments 
move forward, that will be something, at least for the National 
Science Foundation, that we are interested in understanding: 
What is the impact of an effort initiated by States to make for 
Common Core standards? But it is not a direct part of this 
reorg.
    Dr. Holdren. Let me add one further point. At the 
Department of Education under the Fiscal Year 2014 budget 
proposal of the President, there would be $265 million focused 
on STEM instruction. And obviously, in the framework of that 
focus clearly the questions of the effectiveness of the core 
curriculum will come into play.
    The other thing I would mention that is germane as to what 
would go on in the Department of Education under the Proposed 
Reorganization is a set of STEM innovation networks which would 
connect schools, businesses, national laboratories, 
universities to work on the most effective ways to lift our 
game collaboratively and collectively in STEM education. And 
again, in that context clearly the core curriculum issues would 
arise.
    Mr. Posey. Okay. So we have gone from three noes to two 
yeses?
    Dr. Holdren. Well, I think, Congressman, with respect, the 
point was that the strategic plan does not address that issue 
in detail but the budget provides for substantial resources and 
programs that clearly would incorporate certainly looking at 
and understanding the benefits as well as any liabilities of 
the various approaches that are out there.
    Mr. Posey. I think you have said for the STEM programs 
pretty forthright and it seems like the Common Core Initiative 
has already begun to morph and there is a lot of uncertainty 
about where it is going to end up. I noticed $5 million for a 
new STEM office at the Department of Education, and I wondered 
if you could give me four or five examples of successful 
departments in the Department of Education that we would like 
this new one to emulate.
    Dr. Holdren. I think you probably need a witness from the 
Department of Education up here to provide that sort of list, 
but I think--you know, I mean I would certainly say that the 
Invest in Innovation grant program at the Department of 
Education has been very successful. It has funded a variety of 
programs that are increasing participation, increasing success 
rates. The Pell grant program has been very successful. There 
is good research that shows that the Pell grant program has 
very substantially affected the number of people going to 
college. Folks who otherwise would not have been able to go to 
college have been able to do so under the Pell grant program.
    I think--you know, the Department of Education occasionally 
comes in for something of a beating in some of these contexts, 
but in fact I think there are some great successes in the 
Department. But its own representative might be a better and 
more effective spokesperson for that.
    Mr. Posey. Does anyone have any idea how many employees we 
have at the Department of Education now?
    Dr. Holdren. I assume that you do.
    Mr. Posey. No, I mean I would guess probably 35, 40,000 
people over there, you know, looking for a job description 
every day but I don't know.
    Dr. Holdren. We can obviously get you that number.
    Mr. Posey. Okay. Thank you. I yield back.
    Chairman Smith. And thank you, Mr. Posey.
    The gentleman from California, Mr. Takano.
    Mr. Takano. Thank you, Mr. Chairman.
    You all know that I have a background in K-12 education as 
a 23-year teacher, not in the sciences but in humanities, and 
22 years as a community college trustee. My question, first of 
all, is directed to Dr. Ferrini-Mundy. The 2007 America 
COMPETES Act authorized NSF to award grants to Hispanic-serving 
institutions to enhance the quality of undergraduate STEM 
education at such institutions. Despite guidance from Congress, 
the NSF has not requested separate funding for HSIs. La Sierra 
University, Riverside Community College, UC Riverside are three 
schools in my district that could benefit from this dedicated 
funding.
    As the Administration moves forward with the strategic 
plan, how will NSF ensure that minority-serving institutions, 
particularly HSIs, are receiving the support they need to 
promote STEM education among minority students?
    Dr. Ferrini-Mundy. Thank you for the question, sir. As you 
know, the National Science Foundation has a very strong 
commitment to broadening participation and has a number of 
programs, an entire division in my directorate that is focused 
on human resource development and broadening participation, so 
several programs within that unit that are very--particularly 
aimed at minority-serving institutions. We track very carefully 
the success rates, and the application rates. We do substantial 
outreach with Hispanic-serving institutions and other minority-
serving institutions. That is an area of great concern and 
interest for us.
    I think going forward the CoSTEM proposed plan is actually 
wonderful in terms of its focus on improving the participation 
in STEM of students from groups that have traditionally been 
underrepresented in STEM, including Hispanic students. And the 
plan, I believe, is to work in the next several months very 
closely with stakeholder communities to look across government 
at the full portfolio of investment for groups that have been 
underrepresented in STEM to think about the most efficient and 
effective ways to make a difference. So it is a strong 
commitment in the strategic plan and for the National Science 
Foundation.
    Mr. Takano. Wait. Can you tell me--and one of the areas I 
am concerned about that I have observed as a weakness in STEM 
education is elementary school. We are lucky if we get that 
teacher who has the snakes and the ant farms and all that to 
engage those students early on, but it is so important to get 
them early.
    And you all--I am glad to hear that you are also interested 
in pre-K. So can you tell me about this reorganization and what 
opportunities there are for improving pre-K curriculum and 
teaching and also what we are going to do to train and provide 
the portfolio of activities for those elementary school 
teachers?
    Dr. Ferrini-Mundy. So I can give the beginnings of an 
answer really as we are just embarking on this plan and the 
first stages will be transitioning and implementing the ideas. 
But I do know that both the National Science Foundation and the 
Department of Education have invested in pre-K STEM-oriented 
programs and work to try to improve student learning in those 
fields and those areas.
    And because there is a teacher education component in the 
strategic plan goal on K-12 instruction, that is a P-12 teacher 
focus, a lot of the focus there would be on the pre-service 
preparation of teachers. So the idea about what does the 
undergraduate curriculum look like for those preschool and 
primary grades and elementary school teachers, that is 
certainly very much on the table in this discussion. The 
planning will take shape as we go but I think there is a strong 
commitment to it.
    Mr. Takano. Well, I am really glad to hear it because, you 
know, often the teachers who prepare for--people who prepare 
for elementary and pre-K service, they don't often come with 
that preparation. So obviously we have to get to them in the 
undergraduate, the general education----
    Dr. Ferrini-Mundy. Absolutely.
    Mr. Takano.----before they actually do specialize. Can you 
tell me more about what we are going to do about computer 
science as a part of STEM? About half of the country's 9.2 
million jobs in the STEM fields will be in computing. I don't 
know if you can----
    Dr. Ferrini-Mundy. I can start and my colleagues may have 
more to say, but we at the National Science Foundation 
certainly recognize the need to have a number of initiatives 
and partnerships between the Directorate for Computer and 
Information Sciences and Engineering and the Directorate for 
Education. In particular, we have had a focus on improving high 
school participation in computer science, so we have had a 
program to actually stimulate activity to get more high schools 
across the country to a point where they have the capacity to 
offer computer science courses, not just advanced placement 
computer science but prerequisite courses that recognize the 
centrality of computing, of big data, since so many careers in 
STEM that are going to depend upon those kinds of capacities 
and capabilities. So we are actively engaged in investing in 
those areas, and that can as well fall into the strategic plan.
    Mr. Takano. Great. I can have the rest of that question 
answered later, sir, Mr. Chairman.
    Chairman Smith. Thank you, Mr. Takano.
    The gentleman from Utah, Mr. Stewart, is recognized.
    Mr. Stewart. Thank you Mr. Chairman. To the panelists, 
thank you for being with us. Thanks for hanging in there. I 
know it has become a rather lengthy hearing. I am impressed 
with your ability to pack the house as I look around at this 
hearing. I have never been to one that had quite so many 
people, which means you are either the most brilliant set of 
witnesses ever assembled or maybe the sexiest or whatever it 
is. Thanks for doing that.
    You know, as--all of you have either said this directly or 
indirectly, alluded to it, and that is your concern--Mr. 
Holdren, you mentioned that we are in the middle of the pack 
when it comes to comparative scores of other nations in math 
and sciences. True? And I mean that is not really an opinion. 
That is pretty much--I mean it is a provable fact where we are 
in these comparative test scores. And the rest of the panel 
would agree with that determination. That is about where we 
are, right?
    And, I actually wanted to say here, because this is a 
question that doesn't relate directly to most of the 
conversation today, but I would really appreciate your opinion 
on this. That is you have this apparent dichotomy where there 
is no other nation on earth--on one hand, we are in the middle 
of the pack and probably have been for a long time. This isn't 
something that developed in the last 10 or 15 years in, you 
know, STEM education, yet there is no other nation on Earth 
that leads as we do in innovation, in business development and 
patents and job creation in what I would describe as the 
creative process of taking this information and actually doing 
something with it, actually creating something with it. You 
know, when it comes to applying that innovation and doing 
something that benefits humanity, there is really--no one does 
it better than we do.
    Now, look, there is lots of examples. You know, eBay, 
Google, NASA, IBM, pharmaceuticals, aerospace, I mean there is 
lots and lots of areas that are driven by science and 
technology that we are still the leader and have always been 
the leader in the world. And I wonder if you could help me 
explain that a little bit or help me understand that. How is it 
on one hand we are average and yet when you are--the outcome of 
this is you are trying to create innovation, you are trying to 
create jobs, you are trying to better people's lives and we are 
still the very, very best at that.
    And do you have any ideas? Have you considered that, of why 
it is that, you know, we could have one on the one hand and yet 
have this real positive outcome on the other still?
    Dr. Holdren. Absolutely. We have thought about that. I will 
make a couple of quick points. One is that we still have by far 
the best university system in the world. Our research 
universities are the envy of all of the rest of the world, and 
to some extent some of the shortfalls in our K-12 STEM 
education system are compensated for by the enormous 
capabilities of our university system. A second point that----
    Mr. Stewart. Well--and so just very quickly, so the 
universities are able to overcome what we would agree is a 
deficiency up to that point----
    Dr. Holdren. In part.
    Mr. Stewart. --up to the university point?
    Dr. Holdren. In part, but as the PCAST study of the first 
two years of college education in the STEM fields also showed, 
we are still losing a lot of talent that we don't need to lose. 
Only 40 percent of American students who enter our universities 
intending to get a STEM degree do get a STEM degree. The 60 
percent that we lose are a loss to our innovation capacity 
going forward.
    The second point I would make is a crucial aspect of our 
success is having an economic and policy environment that 
encourages and supports risk-taking and entrepreneurship. And 
again, we lead the world in that respect and we need to 
preserve the policy and economic environment which involves tax 
policy, intellectual property rights policy, and many other 
dimensions of policy including even immigration policy to 
ensure that we retained an environment that nurtures this 
creativity, this entrepreneurship, this risk-taking, which has 
produced so much for our society.
    Mr. Stewart. And could I just interrupt to agree with you 
on that? And that is maybe one of the points of my question is 
to recognize that these are important subjects that we are 
talking about with this--with the funding and the organization 
around STEM and the sciences and math. But there is another 
very important element to that and that is, you know, who we 
are as a nation, and as you said, the creativity, the 
innovation, the risk-taking, the entrepreneurship is something 
that is also an important consideration.
    Dr. Holdren. Absolutely.
    Mr. Stewart. Yes. Okay.
    Dr. Holdren. The one other thing I would add though is when 
you are in the lead, you still need to look over your shoulder 
from time to time to see if anybody is gaining on you, and it 
is becoming a more competitive world in these respects. And 
that is one of the reasons why we have to be concerned about 
lifting our game in STEM education because we want to continue 
to be the leader in innovation and creativity, and development 
of new products and businesses. And with other folks around the 
world investing larger and larger sums in trying to be able to 
compete with us in these dimensions, we cannot rest on our 
laurels.
    Mr. Stewart. And I agree with that. And my time is up. I 
wish it wasn't because I would be interested in the other 
members of the panel and your thoughts on that because I think 
it is worth considering. And I agree as well. We should look 
over our shoulder. We should be aware of who is behind us, but 
I do think that--you know, I don't prophesize our future demise 
because of this. I think there are some things that are just 
inherently a part of our nation that give us some advantages 
there as well. So again, thank you.
    Chairman Smith. I thank you, Mr. Stewart.
    The gentlewoman from Maryland, Ms. Edwards, is recognized 
for her questions.
    Ms. Edwards. Thank you, Mr. Chairman. And thank you to the 
witnesses today. And I think you can see both by the fact that 
the packed room has stayed but also Members are engaged that we 
really consider this an important area of focus. And I have to 
tell you, you have to register me as one of the skeptics about 
the consolidation proposal. I want to ask Mr. Melvin. Recently 
in a hearing--and you are like the go-to guy on education in 
NASA, right? You can just say yes.
    Mr. Melvin. Yes, I am.
    Ms. Edwards. Okay. So at a recent hearing Administrator 
Bolden highlighted some of this progress that NASA has made to 
improve its STEM programs and to establish the first-ever 
metrics that measure effectiveness. How much of that--and that 
was under a lot of your guidance and leadership and it is not 
the first reorganization but it is one that--you know, that you 
have overseen. How much of those measures have been put into 
place up until this proposal came forward?
    Mr. Melvin. So before the proposal came forward, we were 
looking at redesigning one of our flagship programs Summer of 
Innovation, a program that would do hands-on experiential 
activities with students in the summertime to try to combat 
that summer slide, and that program over the course of its 
inception in 2010 had been redone many, many times, but the 
final redoing of the program we worked with Gil Noam and the 
PEAR Institute at Harvard University to see what the dimensions 
of success would be for the evaluation process of getting this 
program done. So right now, we are in the process of getting 
back some of that data from last year to see how effective the 
program is because one of the toughest things to do is to 
measure how effective a STEM engagement program is.
    Ms. Edwards. So let me just ask this. So the data that you 
are in the process of getting back, was that actually used to 
develop the consolidation plan?
    Mr. Melvin. That data was not.
    Ms. Edwards. Okay. And so--and then just in terms of--how 
many programs were actually cut from NASA in this 
consolidation?
    Mr. Melvin. There were 78 programs with a science mission 
directorate that were cut. We were given a pot of money to look 
at the best programs----
    Ms. Edwards. Less 40 not--you looked at those best 
programs?
    Mr. Melvin. We are in the process of doing that right now. 
My team, the Education Coordinating Council, all the center and 
directors at the agent centers, as well as my mission 
directorate leads, we are all going through a process right now 
to distill down what those programs will be coming forward for 
the '14.
    Ms. Edwards. So how much input did you or the Administrator 
have in the programs that--I mean in the reduction of the $49 
million from NASA? How much input did you provide for that?
    Mr. Melvin. So our input was through the CoSTEM process and 
just what programs we had. We did not say this should be the 
program; this should be cut. It was not----
    Ms. Edwards. So you guys actually have the expertise but 
you didn't make the recommendation about which programs should 
be cut or not?
    Mr. Melvin. Correct.
    Ms. Edwards. And, Dr. Holdren, was that true for the other 
agencies that are impacted as well?
    Dr. Holdren. The agencies all provided their information 
about programs, about budgets, about the evaluations that they 
had or didn't have, and that information was then taken into 
account in the process I described----
    Ms. Edwards. But the people who are the experts didn't 
contribute to making the decision about what should be cut or 
not?
    Dr. Holdren. Ordinarily, if you ask people if they would 
like any of their programs to be cut, they will say no.
    Ms. Edwards. Right, but I mean they do have some level of 
expertise----
    Dr. Holdren. Yes, and----
    Ms. Edwards. --about the things that are working and the 
things that are not?
    Dr. Holdren. And we drew on that in the inputs we got from 
all of the agencies about their programs and about their 
evaluations and so on.
    Ms. Edwards. So--Mr. Melvin, so if you were to look at the 
programs that you would identify as the most successful 
programs at NASA run through STEM, do you still have 
responsibility for those?
    Mr. Melvin. I still have responsibility and I have 
resources to bring forward what are the best programs in NASA. 
So our budget did get cut. We have got tough times. We have got 
to make sure we bring forward the best things that we have, 
that we can for the President's plan.
    Ms. Edwards. Okay. So--and, Dr. Holdren, the Department of 
Education now is going to get an additional $285 million, and I 
think many of us would agree that it is important to build the 
capacity for the Department of Education around STEM. But 
wouldn't it be more effective to build that capacity and then 
enable them to make a decision about how it is that they could 
most effectively run rather than throwing in a pile of $285 
million in addition and now saying now build your capacity and 
figure out what you do best?
    Dr. Holdren. Well, first of all, Congresswoman Edwards, I 
would say that there are already many strong programs and a lot 
of real capacity in Education. It is not as if the Department 
of Education is starting from scratch here. They have a lot of 
activity, a lot of capability, and we are proposing to add to 
it in areas of priority that the President has endorsed. And 
those include the Math and Science Partnership program, the 
STEM innovation networks that I mentioned, and ARPA-ED to 
look--which would be under the Investing in Innovation program 
that would look at out-of-the-box, paradigm-breaking ways to 
improve our game in STEM education.
    We think it is time to place some bets on the highest 
priorities, on the most transformative potential activities 
that we can undertake. And we think that the transfer of 
actually a modest fraction of the total resources being spent 
in STEM education to those priorities is a good idea. 
Obviously, people initially can disagree. There is a sense in 
which transitions are always stressful because people are clear 
about what is going away and less clear about what they are 
going to get.
    Ms. Edwards. Well, so--but currently, the Department of 
Education only really has one staffer on STEM education. 
Wouldn't you agree that to get this additional resource and 
capacity that they have to develop more capacity?
    Dr. Holdren. Well, there is $5 million inthe proposal to 
build up a STEM education office within the Department of 
Education to coordinate a lot of this but it is not as if there 
isn't an enormous amount of relevant capacity spread across the 
different domains of the Department of Education that we would 
be drawing on to expand some of these programs. But we do agree 
that we need more focused STEM education expertise right 
attached to the Office of the Director, and that will happen 
under the proposed plan.
    Ms. Edwards. Well, I--and my time is greatly run out. I 
hope we will have, Mr. Chairman, some additional opportunity to 
discuss this because I think that there--as you can see, the 
interest and the programs that are there and people who--as a 
parent as I was or in community have deep experience with 
agencies like NASA who actually already know what they are 
doing in STEM, and it feels like why--I mean, you know, if it 
ain't broke, don't fix that. I yield.
    Chairman Smith. Okay. Thank you, Ms. Edwards.
    The gentleman from California, Mr. Swalwell, is recognized.
    Mr. Swalwell. Thank you, Mr. Chair.
    I think the evidence is clear from all of the witnesses 
that right now in the United States we are facing a shortage of 
high-skilled workers in technology, advanced manufacturing that 
our employers are just not able to fill. And I represent 
northern Silicon Valley and I spent the last week going across 
the valley talking to these employers, and it is clear that 
there are positions today that they would like to fill. They 
can't fill them because of not having enough workers. That 
means we don't have enough students coming up through the 
pipeline.
    So I think the short-term solution for that of course is 
comprehensive immigration reform. That includes increasing the 
H-1B visas.
    But the long-term solution is what I believe we are here 
today to talk about, which is making sure that children in our 
own country are able to fill those jobs one day because of 
their STEM education. And their STEM skills will be their 
ticket to the innovation economy. And so there is certainly a 
role for the Federal Government to play in helping our children 
obtain those skills.
    I believe education should always be a national obsession 
but a local possession, and relying on local stakeholders, I 
think, can really guide us. And so I wanted to first talk 
about--as we talk about and consider the Proposed 
Reorganization of STEM, we need to make sure that this 
reorganization does not come at the expense of valuable 
programs like in my district at Lawrence Livermore laboratory 
we have the Computational Science Graduate Fellowship program 
known as CSGF. It has played a vital role in our lab's effort 
to have that pipeline of qualified graduate students who can go 
into our workforce.
    A number of students have written to me about their 
concerns about this program being consolidated into NSF. I have 
heard from students Jeffrey Oxbury, Teresa Bailey, Brian Gunny, 
Sam Schofield, and Dr. Jeff Hittinger, who runs the Center for 
Applied Scientific Computation, and I was hoping, Dr. Ferrini-
Mundy, you could address the concerns from these students that 
moving this away from DOE could affect their ability to obtain 
meaningful training and then move into the workforce.
    Dr. Ferrini-Mundy. Thanks for your comments and for your 
question. The NSF is absolutely committed in this 
reorganization to making sure that we have individual 
conversations--and those are well underway--with every single 
agency and every single program that is involved in this 
Graduate Fellowship consolidation. And our plan for this is 
fairly straightforward and we hope is one that will serve the 
needs of the mission agencies and the students that they 
support really quite well, and that is to enlarge our Graduate 
Research Fellowship program, which is a very strong selective 
program. It spans 11 different disciplines of STEM and has 180 
different fields of study that are allowable, so it is quite 
likely to span the areas of computer science and engineering 
and mathematics that would be the likely fields that the 
students in this Computational Science Graduate Fellowship 
program are in.
    Mr. Swalwell. Great. And I will move to Dr. Holdren. Dr. 
Holdren, you told my colleague Joe Kennedy that vocational 
schools were a priority for STEM under the Educate to Innovate 
program. And I went back and looked at the memo that was 
prepared for us from your office regarding this program, and 
that Educate to Innovate program was only mentioned once and is 
not listed as having a funding source. And also I didn't see 
any use of the word vocational training.
    And I share the same concerns from--that Congressman 
Kennedy has, which is that of course we want to make sure that 
all of our students can learn STEM skills and perhaps an 
undergraduate and graduate or doctoral degree and maybe start 
the next Google, but not every student is going to be able to 
do that. And it is just as important that they are able to 
participate in the innovation economy in other roles, which 
will help them grow into our middle class. And so what will be 
the role of vocational training in this program?
    Dr. Holdren. Well, as I have already said, vocational 
training was not a major focus of the CoSTEM review, which had 
a narrower focus, but the role of the community colleges in 
particular is something that has been of interest to the 
President, of interest to the OSTP and the OMB and the DPC, and 
we have been generating in part with substantial private 
resources partnerships, as I mentioned before, that address 
that problem by improving the curricula of community colleges 
to better match the jobs that are available in those regions.
    When you ask where the resource is coming from, this is one 
of the domains in which the private sector has really stepped 
up precisely for the reason you mention, that high-tech 
companies are not able to hire the workers that they need. And 
so they know they have to feed the pipeline and they are 
stepping up with their own resources to do that.
    Mr. Swalwell. And I will conclude with a concern. I don't 
think I have time for another question. But I am concerned that 
right now it appears that as far as underrepresented groups, 
there is not an assigned lead agency. I understand all three 
agencies could deal with them right now, but if we are going to 
move to this lead agency process, which I have concerns just 
like Congresswoman Edwards does, I do hope that we are not in 
the scenario where underrepresented groups have no representing 
agency. So I would like to see underrepresented groups have a 
lead agency that focuses on them. So thank you, Mr. Chairman.
    Chairman Smith. And thank you, Mr. Swalwell.
    The gentlewoman from Connecticut, Ms. Esty, is recognized.
    Ms. Esty. Thank you, Mr. Chairman. I would like to return 
again to one of the issues that was raised early on, which is 
our communities who have very active organizations in 
Connecticut. We have a science museum that has long-standing 
programs, just as we mentioned the Museum of Science and 
Industry, which I remember as a child. What sort of outreach is 
being done right now to these nongovernmental organizations who 
have long records of activity, particularly with the K-12, to 
give them a heads up about how the process is going to work 
going forward because we are all getting a lot of questions in 
our district, a great deal of concern. State budgets are being 
cut and suddenly they are hearing through the grapevine that 
this is going away. So how are you reaching out to them? How 
can we ensure proper information is being shared?
    Dr. Holdren. Let me start by mentioning again that the 
Department of Education will have a major role here through its 
STEM innovation networks, which is a program that, under the 
President's proposal, would provide $150 million to school 
districts to build partnerships with the Federal science 
agencies, with universities, with businesses, with museums. I 
think because this is relatively new, the extent of the 
outreach to these various constituencies is, up until now, not 
all that extensive, but it will become more so particularly if 
this budget is approved.
    I mean there is a bit of a chicken-and-egg problem here. We 
are still in Fiscal Year 2013 and we don't have the 
reorganization plan in place except in the President's proposed 
budget. But obviously, that sort of outreach is already 
starting and would have to be expanded.
    Ms. Esty. All right. And if we could turn back to the 
question about with the Department of Education taking lead for 
K-12, we know from the work being done on science and certainly 
from the excitement over decades that NASA has generated in 
schoolchildren and the importance of having practitioners, of 
having researchers, of having people who do science being 
engaged with the youngest of our students, not just with 
graduate students but the youngest of our students.
    How is this--how do we contemplate this is going to work? 
How is NSF and our other major research institutions, NASA 
going to share their expertise because there is a content there 
that is important and an excitement level about what real-world 
science means--with the Department of Education, which does 
not--obviously they are the practitioners under the pedagogical 
side. And how is it contemplated we are going to build out this 
capacity within the Department of Education as well as sharing 
that expertise, which admittedly doesn't have. That hasn't been 
its mission.
    Dr. Ferrini-Mundy. So one thing that the Department of 
Education does have is reach and extensive opportunity to 
connect to States, districts, regions around the country. And 
so we at NSF are very excited about the partnerships that will 
evolve and in fact that have some precursors in previous work 
actually. Our Math and Science Partnership program has had good 
partnering activity with the Department over the years where 
the kinds of things that NSF invests in, the content that gets 
developed, the evidence-based practices and tools and learning 
materials that get developed can then be scaled out in good 
partnership with the Department, and we are excited about 
figuring out how that will work well. But I will admit we are 
at the very beginning stages of this work.
    Mr. Melvin. There is a program called the 21st Century 
Community Learning Centers, which is an afterschool program 
that we are currently partnering with the Department of 
Education and we have this Summer of Innovation content that 
has hands-on experiential activities that can be done inside of 
21st century. So we are currently actively working on a 
Memorandum of Agreement with the Department of Education right 
now to utilize our content in 50 States and 2 territories. So 
that is one example of how we could start this process of 
partnering with mission agencies and then the three lead 
agencies to ensure that we get that content out.
    Ms. Esty. And if I may also add my voice to those of 
Congressman Kennedy and Swalwell on the importance of 
vocational education being incorporated. I know it wasn't 
specifically your focus but it is essential that we have those 
mid-level skills. It is vital that those get included for those 
of us--as I come from an aging industrial manufacturing base of 
the United States, which now is in that transition phase that 
it is going to be absolutely vital that we incorporate that and 
that we incorporate computing as an integral part of this.
    We have had multiple hearings in this Committee on the 
importance of big data. If we do not incorporate computing as a 
core part of this, we are really missing an incredibly 
important opportunity and strategic necessity for this country.
    Dr. Holdren. May I just say we agree? Thank you. Thank you 
very much.
    Chairman Smith. Thank you, Ms. Esty.
    The gentlewoman from California, Ms. Brownley, is 
recognized.
    Ms. Brownley. Thank you, Mr. Chair. And I want to thank the 
panel for being here this afternoon and answering all of our 
questions. I might be towards the end so--of the line here in 
terms of questioning. And a lot of my questions have been asked 
and answered but--so I will just sort of focus on my agreement 
really with you that restructuring and consolidating is very 
important and I think we all probably agree that creating a 
razor-sharp focus on STEM education in our country is very, 
very important to do.
    And I guess, you know, my question I think is focused more 
around the pre-K-12 education understanding and believing that 
we need to engage our children at a very early age and there 
needs to be coherence and relevance and rigor. We have talked 
about all of those things here today in this hearing. I am 
wondering if there has been any assessment or look at comparing 
what we are doing compared to other countries in the world.
    Certainly countries around the world don't necessarily have 
all of the same agencies and expertise that we do, but I think 
in terms of earlier education, we may lag behind. I think the 
President has already proposed that in terms of more pre-K 
education. But have we looked at best practices around the 
country?
    And clearly, I think Dr. Holdren mentioned at the beginning 
of the hearing that the data--achievement data shows that we 
are certainly falling behind. And have we looked at--also, have 
we looked to compare really our investment specifically into 
STEM education with other countries around the world and how 
are we doing?
    Dr. Ferrini-Mundy. Thanks for the question and the 
comments. And I agree; the importance of the early years in 
terms of both engagement and also a solid foundation in 
learning to set in place some open pathways for later choice is 
important.
    What I think I would like to do with this question though 
is ask if we could get back to you with some details about at 
least what NSF has funded if anything by way of particular 
looks at comparisons with other countries' early childhood 
practices or preparation of teachers of early childhood years. 
I would just have to check the portfolio.
    Ms. Brownley. Any other responses?
    Mr. Melvin. I would have to check also to get back to you.
    Dr. Holdren. One of the things we do know about some of the 
other countries that we see when we look over our shoulder and 
ask who is gaining on us is an underscoring of a proposition we 
haven't really mentioned here, but it relates to the importance 
of the local in education and particularly the importance not 
just of teachers and principals and school districts but of 
parents.
    What we find in a lot of these countries--and I know 
President Obama talked about this when he came back from a 
visit to South Korea some time ago--when he was talking with 
the South Korean president about education and the South Korean 
president said you are really lucky you don't have parents 
hounding you all the time to improve your STEM education 
system. The engagement of parents in helping to inspire and 
excite their kids about education in general and about STEM 
fields in particular is immensely important and is something 
that some other countries seem to have an advantage on the 
United States at this particular point. This is anecdotal, not 
systematic research, but it is an impression I have also gotten 
in my travels across some of these countries.
    Ms. Brownley. Thank you. And I would appreciate certainly 
the feedback. And I think, just to conclude, I really firmly 
believe that intelligence is something that can be learned. It 
is not a God-given gift that some children have it and others 
don't, and I think the investment piece of it I think is an 
important area to look at. And I also, as some of my colleagues 
have mentioned around vocational education I think is very 
important but I tend to focus more around career technical 
education because I do believe that in the earlier years with 
our children that we have to provide them with, you know, the 
rigor that they need to be able to choose what they want to do 
as time goes on.
    And certainly I think, you know, one of the benchmarks if 
you will, for example, in mathematics is 8th grade algebra and, 
you know, can all of our children in our country really get to 
a place where they are ready and prepared to be successful in 
8th grade algebra? And that is, you know, a gatekeeper in terms 
of where kids tend to go. So that is not really in the form of 
a question but I was wondering the thinking around--you know, 
for the committee on these--I think these early and important 
investments in the earlier educational years.
    Dr. Ferrini-Mundy. So I think the fact that we--that the 
first priority is about improving K-12 instruction really does 
reflect the Committee's sense that, unless we are doing a 
really wonderful job there, that all of this later career focus 
and career opportunity really can't come to fruition. And so I 
think I can assure you that we have a strong interest in and 
focus on that level. Now, we will work through implementation 
and we will figure out how to, within there, make the right 
focus. But it is quite important.
    Ms. Brownley. Thank you. And, Mr. Chair, I will yield the 
balance of my time.
    Chairman Smith. Thank you, Ms. Brownley.
    The gentleman from California, the Vice Chairman of the 
Committee, Mr. Rohrabacher, is recognized for his questions.
    Mr. Rohrabacher. I am sorry that I have been running 
between different events here and have not been able to 
participate in the discussion.
    And let me just state for the record that when we do talk 
about education, there is a distinct difference--philosophical 
difference--between the people who come to Washington, D.C., to 
want to structure their government. Those people who believe 
that government is a solution and that giving the Federal 
Government more power and authority to make changes are 
definitely going to be focused on if we are going to--this 
problem with STEM education and the solution is going to be 
found in Washington, D.C., by restructuring the way various 
government employees operate and the flow of funds from--that 
are collected by Federal tax collectors and are shifted to 
various power sources throughout the country in terms of 
educational power.
    I--that is one group. I think that I represent and a number 
of people on the Republican side at least believe that that is 
contrary to what will bring progress to our country. The more 
centralized our decision-making process, the more restructuring 
that we do and changing the seats here in Washington and the 
little flow of money comes to this department rather than that 
department is not going to change the dynamics that are at play 
in our country which are leaving us behind when it comes to 
STEM challenges.
    What will help--I will note I meet every student that comes 
from my district and I always ask them--and they are always 
interested in education. I always ask them if they have ever 
driven by the Department of Education while they have been in 
town and most of them have not. I suggest to their people to do 
that because there is a huge amount of money being spent on the 
salaries of the people in those buildings, yet they never see a 
student.
    And perhaps it is a better idea to have more money kept at 
the local level and provide our local communities with the 
money they need to handle their own education rather than to 
focus on how we can restructure things here in Washington, D.C. 
For example, in Orange County we have--believe it or not, we 
have some areas that are very depressed financially and mainly 
through people who live there are mainly illegal immigrants 
living there in fairly bad conditions for their schools, et 
cetera, although we are trying to increase the level of 
education in those community schools as well.
    We are experimenting in Santa Ana with a new system of 
education for these kids for learning mathematics and it is all 
done at a computer and you don't need the teacher there to 
teach and it is some--they have--private--or private foundation 
has developed a system in which these kids can learn basic math 
and algebra, et cetera, by interacting with a computer system.
    And I might add I went down there to check this out and the 
kids that I saw five years ago were--had--are at the bottom of 
the run on the testing scores in Orange County in terms of 
mathematics. And guess what? After introducing the system, they 
are now at the top level and these are kids who barely speak 
English.
    And I think that type of experimentation that you can do 
locally, we wouldn't want to have mandates like this or 
necessarily having Federal dollars being that far out of 
control of Washington, but we feel very comfortable in having 
these things done by local schools. And quite frankly, I 
believe and I am happy to hear the Administration is going to 
try to do what is best based on their view of what government--
the role of government, and I would suggest that there probably 
are many other things that could be done experimentally, et 
cetera, that would give us an edge and give us a new creative 
approach to this challenge, this STEM challenge if we would 
actually look back to the local areas rather than rearranging 
the chairs here in Washington, D.C.
    But I would be happy to have my friend, the President's 
Advisor on Science refute what I just said, go right ahead.
    Dr. Holdren. Congressman Rohrabacher, it is always a 
pleasure to interact with you on these topics. And I agree with 
much of what you said about the importance of local 
experimentation and learning from those experiments. That is 
one of the things we want to do more of. We want to understand 
what experiments are successful and where we identify them to 
assist in their propagation so that successful models can 
become more widespread and success therefore also more 
widespread.
    This is really at its core about partnerships. The amount 
of money being spent by the Federal Government on STEM 
education is a very small fraction of the amount of money being 
spent on education as a whole around the country. That is as it 
should be. We are looking for ways to leverage that relatively 
small percentage in ways that beneficially affect the much 
larger expenditures that go on across our school districts and 
systems in universities and colleges around the country.
    But we are talking about strengthening federal, state, and 
local partnerships. We are talking about public-private 
philanthropic partnerships to leverage this actually relatively 
modest Federal investment in ways that will empower more local 
experiments, more local successes. So we don't have as huge a 
disagreement as you might think.
    Mr. Rohrabacher. Thank you very much. And thank you, Mr. 
Chairman.
    Chairman Smith. Thank you, Mr. Rohrabacher.
    That concludes our hearing. I think we have had a very 
healthy discussion today. Clearly, there has been a mixed 
response to the Administration's consolidation proposals, but I 
think today's discussion has made Members better informed and 
we certainly appreciate the expert testimony we heard today as 
well. I want to--I don't need to--I started to say the Members 
here have two weeks to submit questions but I assume they know 
that and will submit questions to you all over the next couple 
of weeks.
    Thank you again for being here and I appreciate the 
interest by the audience today as well in such an important 
subject. We stand adjourned.
    [Whereupon, at 4:33 p.m., the Committee was adjourned.]
                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by The Honorable John Holdren
[GRAPHIC] [TIFF OMITTED] 81722.024

[GRAPHIC] [TIFF OMITTED] 81722.025

[GRAPHIC] [TIFF OMITTED] 81722.026

[GRAPHIC] [TIFF OMITTED] 81722.027

[GRAPHIC] [TIFF OMITTED] 81722.028

[GRAPHIC] [TIFF OMITTED] 81722.029

[GRAPHIC] [TIFF OMITTED] 81722.030

[GRAPHIC] [TIFF OMITTED] 81722.031

[GRAPHIC] [TIFF OMITTED] 81722.032

Responses by Dr. Joan Ferrini-Mundy
[GRAPHIC] [TIFF OMITTED] 81722.040

[GRAPHIC] [TIFF OMITTED] 81722.041

[GRAPHIC] [TIFF OMITTED] 81722.042

[GRAPHIC] [TIFF OMITTED] 81722.043

[GRAPHIC] [TIFF OMITTED] 81722.044

[GRAPHIC] [TIFF OMITTED] 81722.045

[GRAPHIC] [TIFF OMITTED] 81722.046

[GRAPHIC] [TIFF OMITTED] 81722.047

Responses by Mr. Leland D. Melvin
[GRAPHIC] [TIFF OMITTED] 81722.049

[GRAPHIC] [TIFF OMITTED] 81722.050

[GRAPHIC] [TIFF OMITTED] 81722.051

[GRAPHIC] [TIFF OMITTED] 81722.052

[GRAPHIC] [TIFF OMITTED] 81722.053

[GRAPHIC] [TIFF OMITTED] 81722.054

[GRAPHIC] [TIFF OMITTED] 81722.055

[GRAPHIC] [TIFF OMITTED] 81722.056

[GRAPHIC] [TIFF OMITTED] 81722.057

[GRAPHIC] [TIFF OMITTED] 81722.058

[GRAPHIC] [TIFF OMITTED] 81722.059

[GRAPHIC] [TIFF OMITTED] 81722.060

[GRAPHIC] [TIFF OMITTED] 81722.061

[GRAPHIC] [TIFF OMITTED] 81722.062

[GRAPHIC] [TIFF OMITTED] 81722.064

[GRAPHIC] [TIFF OMITTED] 81722.065

                              Appendix II

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

 Submitted statement for the record by Representative Frederica Wilson
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  Submitted letter for the record by Representative Joseph P. Kennedy
[GRAPHIC] [TIFF OMITTED] 81722.022

[GRAPHIC] [TIFF OMITTED] 81722.023

             Submitted list of STEM programs for the record
                     by The Honorable John Holdren
[GRAPHIC] [TIFF OMITTED] 81722.033

[GRAPHIC] [TIFF OMITTED] 81722.034

[GRAPHIC] [TIFF OMITTED] 81722.035

[GRAPHIC] [TIFF OMITTED] 81722.036

[GRAPHIC] [TIFF OMITTED] 81722.037

[GRAPHIC] [TIFF OMITTED] 81722.038

[GRAPHIC] [TIFF OMITTED] 81722.039

          Submitted letter to correct statements in the record
                     by The Honorable John Holdren

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
